<html>
<title> - [H.A.S.C. No. 113-119] UNMANNED CARRIER-LAUNCHED AIRBORNE SURVEILLANCE AND STRIKE (UCLASS) REQUIREMENTS ASSESSMENT</title>
<body><pre>[House Hearing, 113 Congress]
[From the U.S. Government Publishing Office]



                                     
 
                         [H.A.S.C. No. 113-119]

                       UNMANNED CARRIER-LAUNCHED

   AIRBORNE SURVEILLANCE AND STRIKE (UCLASS) REQUIREMENTS ASSESSMENT

                               __________

                                HEARING

                               BEFORE THE

             SUBCOMMITTEE ON SEAPOWER AND PROJECTION FORCES

                                 OF THE

                      COMMITTEE ON ARMED SERVICES

                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED THIRTEENTH CONGRESS

                             SECOND SESSION

                               __________

                              HEARING HELD

                             JULY 16, 2014

                                     
[GRAPHIC] [TIFF OMITTED] 

                                     
                                   ______
  
                         U.S. GOVERNMENT PUBLISHING OFFICE 
  
 89-512 PDF                     WASHINGTON : 2015 
  -----------------------------------------------------------------------
    For sale by the Superintendent of Documents, U.S. Government Publishing 
    Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
           DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                            Washington, DC 20402-0001
                          


             SUBCOMMITTEE ON SEAPOWER AND PROJECTION FORCES

                  J. RANDY FORBES, Virginia, Chairman

K. MICHAEL CONAWAY, Texas            MIKE McINTYRE, North Carolina
DUNCAN HUNTER, California            JOE COURTNEY, Connecticut
E. SCOTT RIGELL, Virginia            JAMES R. LANGEVIN, Rhode Island
STEVEN M. PALAZZO, Mississippi       RICK LARSEN, Washington
ROBERT J. WITTMAN, Virginia          HENRY C. ``HANK'' JOHNSON, Jr., 
MIKE COFFMAN, Colorado                   Georgia
JON RUNYAN, New Jersey               COLLEEN W. HANABUSA, Hawaii
KRISTI L. NOEM, South Dakota         DEREK KILMER, Washington
PAUL COOK, California                SCOTT H. PETERS, California
BRADLEY BYRNE, Alabama
               David Sienicki, Professional Staff Member
              Phil MacNaughton, Professional Staff Member
                        Katherine Rember, Clerk
                        
                        
                        
                            C O N T E N T S

                              ----------                              

                     CHRONOLOGICAL LIST OF HEARINGS
                                  2014

                                                                   Page

Hearing:

Wednesday, July 16, 2014, Unmanned Carrier-Launched Airborne 
  Surveillance and Strike (UCLASS) Requirements Assessment.......     1

Appendix:

Wednesday, July 16, 2014.........................................    41
                              ----------                              

                        WEDNESDAY, JULY 16, 2014
  UNMANNED CARRIER-LAUNCHED AIRBORNE SURVEILLANCE AND STRIKE (UCLASS) 
                        REQUIREMENTS ASSESSMENT
              STATEMENTS PRESENTED BY MEMBERS OF CONGRESS

Forbes, Hon. J. Randy, a Representative from Virginia, Chairman, 
  Subcommittee on Seapower and Projection Forces.................     1
Courtney, Hon. Joe, a Representative from Connecticut, 
  Subcommittee on Seapower and Projection Forces.................     3

                               WITNESSES

Andress, Mark D., Assistant Deputy Chief of Naval Operations for 
  Information Dominance..........................................    26
Brimley, Shawn, Executive Vice President and Director of Studies, 
  Center for a New American Security.............................     9
Grosklags, VADM Paul A., USN, Principal Military Deputy, 
  Assistant Secretary of the Navy for Research, Development and 
  Acquisitions, Department of Defense............................    24
Guastella, Brig Gen Joseph T., USAF, Deputy Director for 
  Requirements (J-8), Joint Staff................................    25
Martinage, Robert, Senior Fellow, Center for Strategic and 
  Budgetary Assessments..........................................     5
McGrath, Bryan, Managing Director, FerryBridge Group, LLC........    10
O'Rourke, Ronald, Specialist in Naval Affairs, Congressional 
  Research Service...............................................     3

                                APPENDIX

Prepared Statements:

    Brimley, Shawn...............................................    73
    Forbes, Hon. J. Randy........................................    45
    Grosklags, VADM Paul A., joint with Mark D. Andress and Brig 
      Gen Joseph T. Guastella....................................   101
    Martinage, Robert............................................    61
    McGrath, Bryan...............................................    86
    McIntyre, Hon. Mike, a Representative from North Carolina, 
      Ranking Member, Subcommittee on Seapower and Projection 
      Forces.....................................................    50
    O'Rourke, Ronald.............................................    51

Documents Submitted for the Record:

    [There were no Documents submitted.]

Witness Responses to Questions Asked During the Hearing:

    [There were no Questions submitted during the hearing.]

Questions Submitted by Members Post Hearing:

    Mr. Hunter...................................................   111
    Mr. Langevin.................................................   112
    Mr. Larsen...................................................   115
    
  UNMANNED CARRIER-LAUNCHED AIRBORNE SURVEILLANCE AND STRIKE (UCLASS) 
                        REQUIREMENTS ASSESSMENT

                              ----------                              

                  House of Representatives,
                       Committee on Armed Services,
            Subcommittee on Seapower and Projection Forces,
                          Washington, DC, Wednesday, July 16, 2014.
    The subcommittee met, pursuant to call, at 2:00 p.m., in 
room 2212, Rayburn House Office Building, Hon. J. Randy Forbes 
(chairman of the subcommittee) presiding.

  OPENING STATEMENT OF HON. J. RANDY FORBES, A REPRESENTATIVE 
     FROM VIRGINIA, CHAIRMAN, SUBCOMMITTEE ON SEAPOWER AND 
                       PROJECTION FORCES

    Mr. Forbes. We want to welcome you to this hearing this 
afternoon. I apologize at the beginning; we are going to have a 
vote series that takes place, but we will be back. It is an 
important hearing and we want to go as long as it takes to get 
this done.
    Today the subcommittee convenes to receive testimony on the 
Unmanned Carrier-Launched Airborne Surveillance and Strike 
(UCLASS) program.
    Our first panel of distinguished guests testifying before 
us are Mr. Ronald O'Rourke. He is a specialist in naval 
affairs, Defense Policy and Arms Control Section for the 
Congressional Research Service; Mr. Robert Martinage, former 
Deputy Under Secretary of the Navy; Mr. Shawn Brimley, 
Executive Vice President and Director of Studies for the Center 
for a New American Security; and Mr. Bryan McGrath, Managing 
Director of FerryBridge Group, LLC.
    Gentlemen, thank you so much for being here.
    Collectively, this bipartisan group has advised the United 
States Congress and Presidential campaigns, commanded a Navy 
large-surface combatant, drafted the 2007 maritime strategy, 
served as Under Secretary of the Navy, served on the National 
Security Council staff, and worked at various distinguished 
think tanks.
    Given their diverse background, I am confident that this 
bipartisan group of witnesses will be able to provide a 
detailed perspective of this committee's continued work on the 
UCLASS program.
    Our second distinguished panel, which will immediately 
follow this one, includes Navy and Joint Staff leaders, 
including Vice Admiral Paul A. Grosklags, Principal Military 
Deputy, Assistant Secretary of the Navy for Research, 
Development and Acquisitions; Mr. Mark Andress, Assistant 
Deputy Chief of Operations for Information Dominance; Brigadier 
General Joseph Guastella, Director of Joint Requirements 
Oversight Council, Department of Defense.<dagger>
---------------------------------------------------------------------------
    <dagger> Mr. Forbes corrected his remarks for the record and 
recognizes General Guastella's correct title, ``Deputy Director for 
Requirements (J-8), Joint Staff.''
---------------------------------------------------------------------------
    Gentlemen, once again, we thank you for being here.
    We have called this hearing to discuss the Navy's UCLASS 
program. But before we proceed, I want to be clear from the 
onset that I am a strong supporter of a future carrier air wing 
that is comprised of both manned and unmanned aviation assets. 
The F/A-18 Super Hornet, the F-35C, the EA-18G Growler, the E-2 
Hawkeye, and the UCLASS program will all be integral to 
ensuring our carrier fleet can continue to project power 
throughout the globe.
    I believe the fundamental question we face is not about the 
utility of unmanned aviation to the future air wing, but the 
type of unmanned platform that the UCLASS program will deliver 
and specific capabilities this vital asset will provide the 
combatant commander.
    Given the likely operational environment of the 2020s and 
beyond, including in both the Western Pacific Ocean and Persian 
Gulf, I believe strongly that the Nation needs to procure a 
UCAV [unmanned combat air vehicle] platform that can operate as 
a long-range surveillance and strike asset in the contested and 
denied A2/AD [anti-access/area-denial] environments of the 
future.
    Unfortunately, in its current form, this committee has 
concluded the UCLASS air systems segments requirements will not 
address the emerging anti-access/area-denial challenges to U.S. 
power projection that originally motivated creation of the Navy 
Unmanned Combatant Air System program during the 2006 
Quadrennial Defense Review [QDR] and which were reaffirmed in 
both the 2010 QDR and 2012 Defense Strategic Guidance.
    It is my determination that the disproportionate emphasis 
in the requirements on unfueled endurance to enable continuous 
intelligence, surveillance, and reconnaissance [ISR] support to 
the carrier strike group would result in an aircraft design 
that would have serious deficiencies in both survivability and 
internal weapons payload capacity and flexibility.
    Furthermore, the cost limits for the aircraft are more 
consistent with a much less capable aircraft and will not 
enable the Navy to build a relevant vehicle that leverages 
readily available and mature technology.
    In short, developing a new carrier-based manned aircraft 
that is primarily another unmanned ISR sensor that can operate 
in a medium- to high-level threat environment would be a missed 
opportunity and inconsistent with the 2012 Defense Strategic 
Guidance, which called for the United States to maintain its 
ability to project power in areas in which our access and 
freedom to operate are challenged.
    But the question of UCLASS is not just one of design and 
capability. It is also about the roll and responsibility that 
Congress has in cultivating, supporting, and protecting 
military innovation.
    Like with the shift from cavalry to mechanized forces, 
sailing ships to steam-powered vessels, the battleship to naval 
aviation, or adopting unmanned aerial vehicles in the late 
1990s, ideas that initiate difficult changes and disrupt 
current practices are often first opposed by organizations and 
bureaucracies that are inclined to preserve the status quo.
    I believe the Congress has a unique role to help push the 
Department and the services in directions that, while 
challenging, will ultimately benefit our national security and 
defense policy.
    I therefore intend to use this hearing today to explore not 
just the UCLASS program, but the broader utility a UCAV can 
have on the Navy's ability to continue to project power from 
the aircraft carrier and the implications for the power-
projection mission in the future if we proceed down the current 
course.
    Again, I thank our two panels for being here to testify and 
look forward to your testimony.
    [The prepared statement of Mr. Forbes can be found in the 
Appendix on page 45.]
    Mr. Forbes. And with that, I turn to my good friend, Mr. 
Courtney, for any comments he might have.

     STATEMENT OF HON. JOE COURTNEY, A REPRESENTATIVE FROM 
            CONNECTICUT, COMMITTEE ON ARMED SERVICES

    Mr. Courtney. Great. Thank you, Mr. Chairman.
    I want to thank the panel for being here. Given the time 
squeeze, I am going to be very brief.
    Reading the testimony of both panels, I actually think 
that--you know, really, I think everyone is trying to get to 
the same end result here, which is a carrier-based unmanned air 
wing. I think there is important discussion that needs to take 
place about sort of the path in terms of moving forward.
    And, again, I think, even though we are sort of walking a 
tightrope here a little bit because we are talking about a 
classified process, so we really can't fully flesh out, I 
think, all aspects of that path at this hearing because it is a 
public hearing, not a classified hearing. Again, I look forward 
to the testimony.
    Again, Mr. McIntyre had some brief remarks which, again, 
for the record, I would ask that they be entered.
    Mr. Forbes. Without objection, we will put any comments 
that Mr. McIntyre has in the record.
    [The prepared statement of Mr. McIntyre can be found in the 
Appendix on page 50.]
    Mr. Courtney. With that, I will yield back.
    Mr. Forbes. Thank you, Joe.
    And, with that, Mr. O'Rourke, we would love to hear any 
comments that you might have.

  STATEMENT OF RONALD O'ROURKE, SPECIALIST IN NAVAL AFFAIRS, 
                 CONGRESSIONAL RESEARCH SERVICE

    Mr. O'Rourke. Chairman Forbes, Ranking Member Courtney, and 
distinguished members of the subcommittee, thank you for the 
opportunity to appear before you today to testify on the UCLASS 
program.
    Mr. Chairman, with your permission, I would like to submit 
my written statement for the record and summarize it here 
briefly.
    Mr. Forbes. And, without objection, all the statements of 
our witnesses will be submitted for the record.
    Mr. O'Rourke. As requested, my testimony identifies some 
issues the subcommittee might consider in assessing operational 
requirements for the UCLASS program.
    My statement presents six such issues. The first is whether 
we are currently undergoing a shift in strategic eras.
    World events since late last year have led to a discussion 
among observers about whether we are currently shifting from 
the familiar post-Cold War era of the last 20 to 25 years to a 
new and different strategic area characterized by, among other 
things, renewed great power competition.
    The shift from the Cold War to the post-Cold War era led to 
a reassessment of assumptions and frameworks of analysis 
regarding defense funding levels, strategy and missions that 
resulted in numerous changes in U.S. defense plans and programs 
while leaving other programs unchanged. A shift from the post-
Cold War era to a new strategic era could lead to another such 
reassessment.
    Current requirements for the UCLASS program reflect 
analyses that were done between 2009 and 2011 and then updated 
and revalidated from 2012 through April 2013. This activity 
predates the events starting in late 2013 that have led to the 
discussion over the possible shift in strategic eras.
    Potential questions include the following:
    First, are we undergoing a shift from the post-Cold War era 
to a new strategic era?
    Second, if we are undergoing such a shift, should that lead 
to a reassessment of assumptions and frameworks of analyses 
relating to defense funding levels, strategy, and missions?
    And, third, if there is such a reassessment, what effect, 
if any, might it have on UCLASS requirements?
    A second issue the subcommittee might consider is how 
requirements for the UCLASS program might affect cost, 
schedule, and technical risk.
    On the issue of cost, the Navy explained to me that the 
program's affordability KPP [key performance parameters] is 
based on the UCLASS AOA [analysis of alternatives] update and 
Navy discussions with industry about potential costs for the 
UCLASS program as currently defined, plus lessons from the 
UCAS-D [Unmanned Combat Air System Demonstrator program] 
effort.
    Defining the affordability KPP in this manner can help 
ensure that the affordability KPP is realistic for the program 
as currently defined.
    At the same time, in the context of a debate over 
requirements, this approach can produce a definition of 
affordability that can be viewed as circular, to some degree, 
because it can be understood as saying, in essence, what is 
affordable is the program with the current requirements.
    A definition of affordability that is, to some degree, 
circular in nature in relation to requirements has the 
potential for being invoked as a rhetorical device for 
discouraging or closing down debate on requirements.
    A third issue the subcommittee may wish to consider is how 
requirements for the UCLASS program might affect estimated 
outcomes in future operational scenarios.
    The specific tactical situations that were examined in the 
UCLASS AOA are related to the program's current requirements. 
Assessing alternative requirements could involve examining 
potential outcomes in other tactical situations, and a broader 
analysis might examine how changes in requirements might affect 
estimated outcomes in campaign-level force-on-force situations 
rather than in specific tactical situations.
    A fourth issue the subcommittee might consider is how 
UCLASS requirements relate to assessments of potential future 
adversary capabilities, for example, how sensitive are 
requirements for the UCLASS program to changes and assessments 
of potential future adversary capabilities and how much 
uncertainty or potential for changes is there in these threat 
assessments.
    A fifth issue the subcommittee might consider is how 
requirements for the UCLASS program might affect potential 
technology paths for future systems and capabilities, for 
example, what effect might UCLASS requirements have on opening 
up, preserving, or encumbering potential pathways for achieving 
the Navy's current long-term vision for naval aviation or 
potential alternatives to that vision.
    A sixth issue the subcommittee might consider is how 
requirements for the UCLASS program might affect the behavior 
of other countries. For example, what impact might UCLASS 
requirements have in terms of imposing costs on potential 
adversaries or persuading potential adversaries--dissuading 
potential adversaries from taking certain courses of action or 
reassuring U.S. allies and partners regarding U.S. intentions 
and resolve.
    These six issues are by no means the only ones that might 
be raised, but considering them might help in forming a 
framework of analysis for assessing UCLASS requirements.
    Mr. Chairman, that concludes my remarks, and I look forward 
to the subcommittee's questions.
    [The prepared statement of Mr. O'Rourke can be found in the 
Appendix on page 51.]
    Mr. Forbes. Thank you, Mr. O'Rourke.
    Mr. Martinage, we look forward to your comments. Thank you 
for being here.

   STATEMENT OF ROBERT MARTINAGE, SENIOR FELLOW, CENTER FOR 
              STRATEGIC AND BUDGETARY ASSESSMENTS

    Mr. Martinage. Chairman Forbes, Ranking Member McIntyre, 
and members of this distinguished committee, first off, thank 
you for the opportunity to share my views on system performance 
requirements for UCLASS.
    I would also like to express my appreciation to the 
committee for taking an active interest in what is one of the 
most important force development issues facing the Department 
of Defense and the Navy in particular.
    I really don't think it is much of an exaggeration to say 
that what is at stake here is not just the operational 
relevance of the carrier air wing in the future, but, really, 
the strategic relevance of the aircraft carrier for decades to 
come.
    I would like to highlight four themes from my written 
statement: first, how to think about UCLASS requirements 
broadly; second, the opportunity cost of unnecessarily high 
unrefueled endurance; third, some thoughts about payload 
requirements; and, fourth, what a more balanced UCLASS design 
might look like.
    So, first and foremost, an assessment of UCLASS 
requirements should begin with a very simple question: What is 
the core operational challenge that UCLASS should be designed 
to solve?
    The dominant answer within the Navy currently and 
reportedly reflected in the UCLASS draft request for proposal, 
or RFP, is that UCLASS is needed to maintain continuous 
maritime domain awareness around the carrier strike group as 
well as to identify targets for attack by relatively short-
range manned fighters.
    An alternative view, and one that reaches back to the 
initiation of the program by OSD [Office of the Secretary of 
Defense] and then the CNO [Chief of Naval Operations] Roughhead 
in 2009, is that the more pressing problem is maintaining our 
ability to project power from the sea when, one, carriers are 
compelled to stand off a considerable distance, perhaps 1,000 
miles or more, from an adversary's territory due to emerging 
anti-access and area-denial challenges, like anti-ship 
ballistic missiles, anti-ship cruise missiles, wake-homing 
torpedos--and the list goes on and on--and then, second, when 
it is necessary to find and attack fixed and relocatable 
targets that are defended by modern innovative air defense 
systems.
    If you believe we need more capacity to generate maritime 
domain awareness around the carrier strike group than what will 
be available when more than 60 MQ-4C Tritons, formerly BAMS 
[Broad Area Maritime Surveillance], enter into service, along 
with MQ-8B/C Fire Scouts that can operate off any air-capable 
ship in the fleet, then the current draft RFP, at least as 
reported in the press, is probably about right.
    If you believe we need even more capacity for persistent 
ISR and light strike in low-to-medium threat environments, 
beyond the several hundred aircraft and the Predator, Gray 
Eagle, and Reaper fleets, then the draft RFP for UCLASS is 
probably on track.
    If you believe instead that UCLASS should be the next step 
in the evolution of the carrier air wing and must be able to 
provide sea-based surveillance and strike capacity in 
anticipated anti-access and area-denial environments, then the 
Navy is aiming well off the mark, which brings us to theme two: 
The opportunity cost of the current threshold requirement for 
unrefueled endurance.
    Driven by the perceived need to maintain continuous 
maritime domain awareness around the carrier strike group, 
including overnight while the deck is closed, the draft RFP 
reportedly contains a derived threshold requirement for an 
unrefueled endurance of about 14 hours.
    The opportunity cost of that 14 hours of unrefueled 
endurance, however, are permanent aircraft design trades that 
reduce survivability and payload carriage and flexibility, the 
exact same attributes that are needed to perform ISR and 
precision strike in an anti-access/area-denial environment.
    I would like to stress that these reductions in 
survivability and payload cannot be bought back later or added 
to future UCLASS variants.
    Similarly, claims that threshold growth or objective 
requirements will place competitive pressure on industry to 
enhance survivability and payload attributes are mostly smoke 
and mirrors. They may appear compelling, but they are 
misleading.
    As a matter of physics, absence breakthrough in engine 
technology, it is impossible to achieve 14 hours of unrefueled 
endurance with an air vehicle sized to operate from the 
aircraft carrier without making changes to its shape and 
propulsion path that negatively impact radar cross-section 
reduction, a.k.a [also known as] stealth, and reduce internal 
weapons carriage capacity, meaning both numbers and types of 
weapons that the air vehicle can carry.
    Simply put, meeting the threshold requirement of 14 hours 
of unrefueled endurance necessarily results in sacrificing 
survivability, weapons carriage/flexibility and the number of 
weapons you can carry, and growth margins for future mission 
payloads. And, again, there are no technologically viable 
growth paths for restoring these attributes later.
    Perhaps this opportunity cost would be acceptable if there 
was a compelling operational justification for 14 hours of 
unrefueled endurance, but there is not.
    And the aircraft with 8 to 10 hours of unrefueled endurance 
flying at high subsonic speeds would have roughly three times 
the combat radius of F-18E/F or the F-35C.
    So to put that into operational perspective, that same 8- 
to 10-hour endurance aircraft could launch from a carrier 
positioned 1,000 miles away from an area of interest, which 
happens to be the range of the Chinese DF-21D anti-ship 
ballistic missile, loiter on station for 3 to 4 hours, then 
recover onboard the carrier still with gas in the tank.
    When factoring in aerial refueling, which is typically 
available in wartime, the 14-hour unrefueled endurance 
requirement is even more nonsensical. With refueling, that same 
8- to 10-hour endurance aircraft could remain aloft for 24 to 
48 hours or longer.
    I would like to shift now to the third theme, payload 
requirements. I am not aware of any mission or campaign-level 
analysis that supports a payload requirement of 1,000 pounds 
for a carrier-based strike aircraft. Certainly that is not the 
case with either the F-18 or the F-35.
    Put more plainly, 1,000 pounds of payload, which equates to 
four small-diameter bombs, is clearly inadequate for saturating 
an adversary's short-range air defenses and neutralizing a wide 
range of very relevant target sites, such as coastal defense 
cruise missile sites, air defense radars, missile launchers, 
even enemy service combatants. One thousand pounds of strike 
payload per aircraft just isn't enough.
    In addition, scant consideration appears to have been given 
to the types of weapons that UCLASS should be able to 
accommodate.
    Even a stealthy UCLASS in the future will need to stand off 
from some classes of defended targets. So it should be able to 
carry weapons such as the Joint Standoff Weapon, the Long Range 
Anti-Ship Missile, or LRASM, and/or a Joint Strike Missile. All 
of these things need more consideration.
    So now, for my fourth and final theme: What would a more 
balanced UCLASS design look like? A more balanced carrier-based 
unmanned air vehicle would, first, achieve the minimum level of 
signature reduction required to locate priority targets and 
engage them with available weapons without being destroyed by 
modern air defenses or, put another way, needs to be able to 
find and hit targets without being shot down. That is a minimum 
precondition.
    Second, it needs sufficient unrefueled endurance to reach 
target areas when carriers are forced to stand off 1,000 miles 
or more.
    And then, third, once those two conditions are met--it can 
find and hit targets without being shot down, it has a 
meaningful operational combat radius--the next thing is 
maximizing the amount of payload it can carry and as many types 
of weapons that it can carry while still fitting on the carrier 
deck.
    So using that approach, a carrier-based UAS [unmanned 
aircraft system] in the future could have, for example, an 
unrefueled endurance of 8 to 10 hours, which translates to a 
combat radius of 1,700 to 2,000 nautical miles, either from a 
carrier or from a tanker; 24 to 48 hours of mission endurance 
with air-to-air refueling; broadband/all-aspect, radar cross-
section reduction matched to the anticipated threat environment 
of 2025 and beyond; and the ability to carry 3- to 4,000 pounds 
of strike payload internally, roughly what an F-35C can carry, 
including their variety of direct and standoff weapons.
    With those attributes, a balanced UCLASS could serve as an 
independent, long-range surveillance and striking arm of the 
aircraft carrier in anti-access and area-denial environments.
    With aerial tanking support, it could respond globally to 
short-notice aggression, regardless of the carrier's initial 
location, and contribute to a sustained extended-range 
precision strike campaign against an adversary's fixed and 
mobile target as part of a joint force.
    So to conclude and to just foot-stomp a few points, first, 
the opportunity cost of 4 to 6 hours of additional unrefueled 
endurance, so 14 hours vice 8 to 10, is a dramatic reduction in 
strike capacity and flexibility, a significant increase in air 
vehicle vulnerability and reduced growth potential, meaning 
lower margins for space, weight, power, and cooling.
    Second, be very skeptical of growth paths that promise to 
increase survivability and payload later. Yes. There are band-
aid solutions and some workarounds, but the core design trades 
made to achieve 14 hours of unrefueled endurance involve the 
air vehicle's shape and propulsion path, and they cannot be 
reversed, period.
    There is no question that the Nation needs a carrier-based 
unmanned aircraft. The relevant question is what kind of 
aircraft. The air vehicle called for in the UCLASS RFP appears 
to be optimized for sustaining persistent maritime domain 
awareness----
    Mr. Forbes. I am going to have to interrupt you there 
because we have got votes that are called. We will let you wrap 
up very briefly when we get back and then go right to Mr. 
Brimley and Mr. McGrath.
    We apologize for these votes. Unfortunately, we are looking 
at probably about 3:45 before we will be back. So we are going 
to stand in recess until that time.
    [Recess.]
    Mr. Forbes. Thank you once again for your patience. And we 
apologize for these votes.
    Mr. Martinage, I think you were finishing up. If you could 
take about 60 seconds and wrap up, and then we will move on to 
Mr. Brimley.
    Mr. Martinage. As I was saying, there is no question that 
the Nation needs a carrier-based unmanned aircraft. The 
relevant question is what kind of aircraft.
    And, in my view, the air vehicle called for in the UCLASS 
RFP appears to be optimized for sustaining persistent maritime 
domain awareness and ISR coverage in relatively benign threat 
environments.
    And, in my view, that is redundant with aircraft in service 
or soon to be in service in the Navy, the Army, and the Air 
Force.
    And, most critically, it does not address the core 
operational problem facing aviation: The intensifying anti-Navy 
threats that will push the carrier farther away from target 
areas and network air defenses that will make non-stealthy 
aircraft increasingly vulnerable to detection and attack. And 
that is the problem we need to look at.
    And I look forward to your questions and discussions later 
on.
    [The prepared statement of Mr. Martinage can be found in 
the Appendix on page 61.]
    Mr. Forbes. Well, thank you for your comments.
    Mr. Brimley, look forward to your comments.

   STATEMENT OF SHAWN BRIMLEY, EXECUTIVE VICE PRESIDENT AND 
    DIRECTOR OF STUDIES, CENTER FOR A NEW AMERICAN SECURITY

    Mr. Brimley. Thank you, Chairman Forbes, Ranking Member 
Courtney, for the opportunity to testify.
    I want to acknowledge my co-panelists, whose work I very 
much admire.
    I see the issue of how the Navy approaches the Unmanned 
Carrier-Launched Airborne Surveillance and Strike program, or 
UCLASS, as an important indicator of how serious the Department 
of Defense is in ensuring America's long-term military 
technical advantage.
    I am concerned that the current program does not fully 
exploit the opportunity the Navy has, in my mind, to lock in 
what could be a decisive advantage in future warfare, the 
ability to employ long-range, stealthy, unmanned strike 
platforms from the aircraft carrier.
    As a former civilian who worked national security policy at 
both OSD, the Office of Secretary of Defense, at the White 
House, I typically approach design procurement--defense 
procurement and design issues through the lens of a policymaker 
and I ask the following types of questions:
    Number one, will the platform provide a future Commander in 
Chief better military options during a crisis?
    Two, will it help address pressing gaps in U.S. defense 
strategy and planning?
    Three, does it enable forward U.S. forces to present a 
stronger conventional deterrent and, if necessary, help ensure 
U.S. forces can defeat a plausible adversary?
    Number four, will the program help underwrite the 
confidence of our allies and partners?
    Five, does it reflect measured judgments regarding mid- to 
long-term requirements for U.S. defense?
    And, six, does the program help ensure America's military 
technical dominance in an increasingly competitive environment?
    Having followed as best I can the debate surrounding UCLASS 
program, I am concerned that the answers to most of the 
questions I just outlined are ``no.''
    The specific requirements in the current draft request for 
proposals, in my mind, having read as much of the open-source 
material as I can, will result in a platform that, one, fails 
to add any real striking power to the carrier air wing; two, 
duplicates many of the ISR systems already available to the 
Navy; three, does nothing to address the major threat facing 
the aircraft carrier, the need to operate from longer ranges 
due to improvements in anti-ship, ballistic and cruise missile 
design; four, and most problematically, vectors the Navy down 
an investment path that will waste precious time and money, in 
my view, risking our ability to integrate long-endurance, 
strike-capable unmanned systems into this country's most 
important power-projection asset, the aircraft carrier.
    I think the strategic implications of a failure to push 
hard now to develop carrier-launched unmanned combat aerial 
vehicles could be significant. Budgets are tight and hard 
choices must be made, but this is an area where I don't think 
we can afford to get it wrong.
    To do so will end up costing more money over the long term 
and increase the risk that the U.S. Navy and the broader joint 
force will be ill-prepared for important plausible future 
contingencies.
    In this respect, I fully endorse, Mr. Chairman, what this 
committee did in requiring the Secretary of Defense--and I 
think it is important it be the civilian leadership of the 
Department--certify the requirements for this program before 
further substantial funding is committed.
    This committee adjudicates issues involving programs much 
larger and far more costly than the UCLASS program, but I think 
this is one of those rare decisions regarding setting 
requirements for future capabilities that could have a major 
impact on how tomorrow's joint force might fight a future war.
    It is critical, in my view, to take the time to ensure that 
we get this right. I appreciate being invited to speak today 
and look forward to the discussion.
    [The prepared statement of Mr. Brimley can be found in the 
Appendix on page 73.]
    Mr. Forbes. Thank you, Mr. Brimley, for your comments.
    Mr. McGrath.

  STATEMENT OF BRYAN MCGRATH, MANAGING DIRECTOR, FERRYBRIDGE 
                           GROUP, LLC

    Mr. McGrath. Thank you, Chairman Forbes, Ranking Member 
Courtney. Thank you for the opportunity to be with you today. 
Thank you for your leadership in sustaining the competitive 
advantages of American seapower and for the leadership that you 
have exerted thus far in exerting pressure on the Department of 
Defense to ensure a truly capable Unmanned Carrier-Launched 
Surveillance and Strike system.
    It is an honor to be on the panel with the three gentlemen 
here, who are also good friends. Bob Martinage, Shawn Brimley, 
and Ronald O'Rourke are among the smartest thinkers on the 
scene today and to be counted among them is humbling.
    And while Mr. O'Rourke's background and employment preclude 
political or ideological identification, I think it is 
noteworthy to note the presence of two Obama administration 
political appointees, Mr. Martinage and Mr. Brimley, alongside 
me, and myself, the Navy policy team co-lead for the 2012 
Romney for President Committee.
    The fact that the three of us are in solid agreement on the 
need for continued congressional oversight of the Navy's UCLASS 
acquisition is notable.
    Specifically, there appears to be consensus on the need to 
ensure the Navy does not pursue a largely duplicative system 
that does little to advance the striking power of our Nation's 
primary forward-deployed power-projection system, the aircraft 
carrier strike group.
    I believe we have reached a ``for want of a nail, a kingdom 
is lost'' moment. The aircraft carrier has been--its demise has 
been predicted for 60 years. And that demise hasn't happened 
because its air wing has evolved to pace the threat throughout 
its history. It is agnostic to the weapons it projects.
    If the air wing of the future does not evolve in a way that 
enables the kind of unmanned strike that a truly capable UCLASS 
would bring, the aircraft carrier might indeed become 
obsolescent.
    If it becomes obsolete, the preponderant Navy that we field 
today that is the primary--in my view, the primary sustainer of 
the global system that is in place today will become far less 
powerful. Far less powerful and influential Navy means a far 
less powerful and influential United States.
    This is not a small question. It is a large one. And I 
appreciate your leadership on the subject. Thank you.
    [The prepared statement of Mr. McGrath can be found in the 
Appendix on page 86.]
    Mr. Forbes. Thank you, Mr. McGrath.
    And now we would like to--I am going to defer my questions 
until after Mr. Courtney.
    So, Mr. Courtney, I will let you go first if you have any 
questions.
    Mr. Courtney. Thank you, Mr. Chairman.
    And, again, I think this is an important hearing. 
Obviously, it was something that was part of the House Defense 
Authorization bill.
    I feel a little bit like we are shadowboxing here, though, 
because we are talking about a classified RFP process.
    And, again, I think the latter two witnesses--your remarks 
were, I think, at a level that I think comport with that 
because you are talking about, you know, the long-range 
mission--or goal of this program, which is--again, I think it 
is great to have that discussion.
    You know, Mr. Martinage, I mean, some of your comments were 
really focused on very specific, you know, components. I mean, 
the 1,000-gallon fuel item that you mentioned a couple of times 
in your remarks.
    And, I mean, again, just for the record, I mean, from a 
process standpoint, we are in a place right now where there is, 
again, a classified RFP that is going to be going out in the 
next few months or so.
    Have you seen any of those documents that, you know, 
provide the basis for your testimony today?
    Mr. Martinage. I have not seen the final draft RFP or the 
most recent RFP. I have been paying very close attention to the 
materials that are out about the draft RFP in the public domain 
as well as the KPPs and KSAs [key system attributes] 
discussion, which has been pretty extensive in the public 
domain.
    And I think the issue--I don't know--which is the central 
one, I think, in my testimony, about the 14 hours of unrefueled 
endurance is clearly a parameter that is out there in the 
public domain.
    And the opportunity cost of that 14 hours of unrefueled 
endurance clearly has an opportunity cost in both survivability 
and payload, and that is just a matter of physics.
    It is not a classification issue. It is not a sensitivity 
issue. It is an aircraft design issue. And given where we are 
with engine propulsion technology, you just can't get to 14 
hours unless you do things to the shape of the aircraft and the 
propulsion path that compromise stealth and payload.
    And that is why I think the current path we are on is not a 
balanced design. And if you relaxed that threshold requirement 
for unrefueled endurance, you could dramatically improve 
payload and survivability, and that is my point.
    Mr. Courtney. So, Mr. O'Rourke, I mean, in the past, I 
mean, we have had weapons platforms--excuse me--and systems 
that have started out looking one way and then, over time, have 
evolved or adapted to different capabilities and different--
maybe you could just give some historic perspective in terms of 
other programs that adaptation and evolution has occurred.
    Mr. O'Rourke. Yeah. To just pick a few examples that come 
to mind in the area of carrier-based aviation, the F-18 is 
probably the largest single example.
    It went through multiple versions, from the AB to the CD 
and then to the larger version, the EF, the Super Hornet, and 
off of that they also then developed the EA-18G.
    Another example would be the E-2 Hawkeye and how it has 
evolved from the E-2C to the Hawkeye 2000 to the E-2D Advanced 
Hawkeye with its new radar.
    A third example would be the P-3 that has evolved a number 
of times since the 1960s through a series of updates. And the 
Navy's plan right now is to procure the P-8 Poseidon multi-
mission maritime aircraft with an incremental or step upgrade 
in mind.
    So right now that plane exists at something called 
Increment 1, but there are plans to build it in a new version 
called Increment 2 that will implement three different 
engineering change proposals over the next few years and then 
move on beyond that to something called Increment 3. And all 
these things are supposed to [achieve] IOC [initial operating 
capability] between fiscal year 2014 and fiscal year 2020.
    In general, it is worth noting that spiral development, 
which I think is the idea that you are getting at here, is 
established as an acquisition pathway for DOD programs. And, in 
fact, there was a push several years ago to make it the default 
approach to acquisition for DOD programs.
    Mr. Courtney. Right.
    And, I mean, even other sort of non-aviation--I mean, DDGs 
[guided missile destroyers] have also kind of changed their 
look over the years.
    Mr. O'Rourke. That is right.
    In the area of shipbuilding, there are additional examples. 
You mentioned one, the DDG, which has moved from the Flight I 
to the Flight II, from there to the Flight IIA, and now we are 
planning on shifting to the Flight III.
    The 688-class submarine went through a number of changes, 
and the 688s we built at the end of that program are quite 
different from the early ones. And the Virginia class is going 
through a block upgrade.
    So, yes, this same idea is well established in shipbuilding 
as well.
    Mr. Courtney. So, I mean--so I guess--and I don't have much 
more to ask right now.
    Is that--I mean, that is sort of the question of the 
hearing, you know, really, whether or not, you know, this is a 
fork in the road that is irrevocable and, you know, permanent, 
forever, or whether or not, you know, that we can follow other 
precedents in the past.
    And certainly, when the next panel comes up, that certainly 
would be my question that I would certainly want to pose to 
them. And, you know, I may have some other written questions 
afterwards.
    But, you know, with that, Mr. Chairman, I would just yield 
back to you.
    Mr. Forbes. Thank you, Mr. Courtney.
    Also, we have a number of our Members who would like to 
submit written questions who couldn't be here because of the 
votes.
    I would like to walk through a series of questions, if I 
could.
    And, Mr. O'Rourke, I would like to start with you because 
you are kind of the closest we have to a historian in looking 
at this from the Congressional Research Service.
    Do you see any shift in the international security 
environment that might warrant the Navy pursuing a different 
path on the UCLASS program than what it is currently pursuing?
    Mr. O'Rourke. That is the first of the six issues I raise, 
whether we are undergoing right now a shift in strategic eras. 
There are a number of people who feel that we are undergoing 
such a shift.
    My own personal view, as an analyst, is that, yes, I think 
we are experiencing a shift in strategic eras. Right now I am 
watching that situation and have been for a number of months.
    Mr. Forbes. Could you give me a couple of examples of the 
world situation that would justify you making that comment?
    Mr. O'Rourke. Well, I think what caught the attention of 
the people who have written about this potential shift in 
strategic eras are two sets of developments.
    One are those in the Western Pacific, and that has to do 
with a series of actions by China starting late last year that 
appear intended or aimed at gaining a greater degree of Chinese 
control over its near-seas region.
    That included the announcement of the air defense 
identification zone toward the end of November, the incident 
with the Cowpens in December, the imposition of the fishing 
regulations in January, and then most recently the movement of 
the oil rig to the Paracel Islands starting in May.
    So that is one-half of the situation that I think a number 
of these observers were noticing.
    And the other was Russia's seizure and annexation of 
Crimea, which was a landmark event regarding the division of 
territories within Europe since the end of World War II.
    And the observers who have looked at that have said, in 
essence, that we may be shifting to a new strategic era, that 
the unipolar moment, as it were, is over and that we are 
entering a new age that is perhaps characterized by, among 
other things, a greater degree of great power competition and 
challenges to fundamental aspects of the U.S.-led international 
order that has operated since World War II.
    Mr. Forbes. So I wouldn't be changing your words if I were 
to say that, based on the world situation, developments that 
have taken place within the last 12 to 18 months, that, in your 
view, that could suggest that the Navy should at least relook 
the direction that they are heading with this UCLASS program?
    Mr. O'Rourke. I can't make a recommendation, as you know. 
But what I can say is that, with other people out there--and I 
am not asking anybody to accept----
    Mr. Forbes. I understand.
    Mr. O'Rourke [continuing]. My own judgment about whether we 
are entering into a new strategic era, but a number of other 
observers are saying that.
    And it is enough to tee the issue up for the committee and 
the Congress as a whole to make its own decision as to whether 
we are entering that era and, if so, whether we should then 
have a reassessment of defense plans and programs.
    Mr. Forbes. Okay.
    Mr. Martinage, I would like to clarify something Mr. 
Courtney asked and--just to make sure that we heard you 
correctly.
    When you talked about the 1,000-pound element, you were not 
talking about 1,000 gallons of fuel, I don't think. You were 
talking about a 1,000-pound payload.
    But correct me if I'm wrong, I mean, because I could have 
heard it wrong. I just want to make sure that question----
    Mr. Martinage. That is correct.
    Mr. Forbes. And, based on that, Mr. Courtney is exactly 
right. We have a lot of classified information on here. He is 
perfectly correct on that.
    But it is your understanding, as I take it from your 
testimony, that you believe the requirements out here would 
relate to a 14-hour endurance requirement in the air?
    Mr. Martinage. That is correct. Yep.
    Mr. Forbes. And a 1,000-pound payload max. Is that correct?
    Mr. Martinage. That is my understanding from what is in the 
public domain.
    Mr. Forbes. Now, if that is accurate and if we have 
flexibility to add additional--would we have flexibility, in 
your opinion--if you have those two requirements or one of 
those two requirements, can we add additional payload 
capability to this platform?
    Mr. Martinage. Meeting the 14-hour unrefueled endurance 
requirement I think would likely preclude a significant 
increase in payload.
    You could probably increase it some and trade off some 
endurance, for example, by putting fuel in the bomb bay or 
something like that or putting external weapons carriage and 
reducing survivability and reducing some endurance.
    If I could, I would like to build on a comment that was 
asked about the evolving and adapting over time, if----
    Mr. Forbes. Please.
    Mr. Martinage. I think that is important for this aircraft 
design to be able to evolve and adapt over time, but you need 
to get the shape and the propulsion path right or you are stuck 
forever in terms of the payload and the survivability. You 
can't undo those things.
    You can. You can build a new jet. But if you get the shape 
wrong at the start and you get the propulsion path wrong at the 
start, you really can't go revisit those things and add payload 
and survivability later.
    So driven by that 14-hour unrefueled endurance choice, 
choices are being made on the shape and the propulsion path 
that really can't be undone, and they will lead to an 
evolutionary dead end for the aircraft.
    And that is why I am concerned. I think having a spiral 
development approach is a good one and you could do that with a 
balanced design.
    So you could take that aircraft that ultimately has 8 to 10 
hours of endurance, 3- to 4,000 pounds of payload, a very low 
signature, and 24 to 48 hours of refueled endurance, and you 
don't have to get there all at once.
    You could field the basic shape and propulsion path. Over 
time you could add more advanced edges and coatings to get the 
survivability. Over time you could add additional weapons that 
it can carry. Over time you could add sensors to it.
    But, again, it is fundamental to get the shape and the 
propulsion path right at the start. And right now that is being 
driven by the 14-hour requirement, and you have to ask yourself 
why 14 hours.
    Mr. Forbes. Now, let me ask you about that.
    Assuming your testimony to be correct and we have a 14-hour 
endurance figure and we have the 1,000 payload max, what does 
that limit me from using in terms of payload?
    Mr. Martinage. Well, the devil is in the detail, sir, and I 
don't know yet because we haven't seen the designs.
    But one is you won't be able to carry enough weapons to 
saturate--say you were going after a surface combatant with 
short-range air defenses like a Luyang II or Luyang III in the 
case of the PLA [People's Liberation Army] Navy.
    You would want a lot of individual weapons to saturate 
their point-defense and then to take out, to neutralize the 
ship. Four SDBs [small diameter bombs] is never ever going to 
do it for you.
    I think it is instructive that we don't think about 1,000 
pounds of payload under the F-35 or the F-18. Why would you 
think about it on UCLASS?
    The other thing is what types of weapons. And that gets to 
not the weapons carriage, you know, how much it can carry, but, 
rather, the volume of the bomb bay. And that is just unclear. 
That is something that needs to be looked at.
    But in order to go after some of these types of targets 
that are defended targets, you would want some standoff 
capability. And it is unclear, as I read what is available, 
whether or not those types of weapons will fit in the bomb bay 
of this current design.
    Mr. Forbes. Now, if I can take the advocate's role for a 
moment and if we are already planning to procure 80 to 100 
long-range bombers, is there a need for a UCLASS program 
focused on the strike mission?
    Mr. Martinage. I would say, (a), we are a joint force and 
it is good to have multiple options for the Commander in Chief 
to pursue.
    Aircraft carriers don't need basing, and they can respond 
quickly to crises wherever they are without having to ask for 
permission for basing and access. They complicate an 
adversary's defensive challenges because you can come from 
multiple directions that they might not anticipate.
    And then I would ask back: If the carrier doesn't have a 
long-range strike capability, what is the point? It is supposed 
to be the major power protection arm of the U.S. Navy. If we 
can't project power where and when necessary, why do we 
continue to invest in it?
    Mr. Forbes. Mr. Brimley, if I could ask you to, one, 
describe for the committee, if you would, cost imposition 
strategies.
    And if you could give us your thought as to whether or not 
pursuing the current course, as you understand it to be for the 
Navy for UCLASS, would impose any cost imposition on any of our 
competitors.
    And if we pursued another course, would that have any cost 
imposition aspects to it?
    Mr. Brimley. Thank you, Mr. Chairman.
    I think, for me, the most instructive case is just to look 
at what is going on in the Western Pacific. I mean, since the 
late 1990s, I think China and the PLA have gone down a path of 
imposing costs on us.
    Well, what does that mean? I think they have spent the 
preponderance of their defense budget over more than a decade 
or more--you know, close to two decades now, trying to 
literally push us farther away. You just have to look at their 
development of increasingly long-range and precise anti-ship 
ballistic missile technology and, also, anti-ship cruise 
missile technology.
    This is the fundamental problem, as my colleague Mr. 
Martinage talked about. If we can't project--we don't have a 
capability from the aircraft carrier to project much farther 
than 1,000 nautical miles, then it is very hard for us to be 
able to deter behavior.
    And I think that, were we to invest in a platform that 
could actually project power over that distance or longer, you 
could significantly complicate our adversaries' calculus and 
impose costs on them, as well.
    The other way I tend to think about this, too, is, you 
know, our allies and partners in the region are looking to us 
to be able to be with them in moments of crisis and moments of 
tension, and if we have a threat that forces the power-
projection hub, the central power-projection platform of the 
U.S. military, to stay well, well outside the first island 
chain, for instance, it could really undermine U.S. foreign 
policy and national security strategy with our allies and 
partners.
    Mr. Forbes. A more ambitious UCAV program would likely cost 
more.
    Can you tell me a little bit about your opinion of what the 
value proposition would be for this?
    Mr. Brimley. Mr. Chairman, yes. You know, I can't give you 
specific cost estimates. I am sure the Navy and elements of the 
Pentagon could give you that.
    But I would just suggest that going down what I called in 
my testimony a strategic UCLASS cul-de-sac--I mean, if we 
invest all this money and all this time to get a system that 
provides perhaps some better maritime demand awareness around 
the carrier strike group, but doesn't buy down any sort of risk 
regarding our ability to project power, then, in my mind, it is 
a waste of money and it is a waste of time.
    So even if--I mean, let's just assume for a moment that a 
more ambitious UCAV could cost, say, 20, 25, 35 percent more 
than the equivalent number of systems of a less capable, less 
mission-centric capability that can't project power. To me, as 
a civilian, as a policymaker, that is a trade worth making. 
That is an investment worth making, in my view.
    Mr. Forbes. Mr. McGrath, can you put the UCLASS program in 
an historic context, as you look at it, and maybe tell us how 
you see it fitting into a broader U.S. defense strategy both in 
Asia and more broadly.
    Mr. McGrath. I will take the second part of the question 
first and maybe an answer to the first part will reveal itself.
    Our geography is not going to change appreciably in the 
near future. This Nation depends on its Navy and its Marine 
Corps to a large degree for much of peacetime-shaping and 
presence missions and transition-to-war duties around the world 
where our far-flung interests are.
    That capability is something no other nation on Earth has, 
and it is a capability that a nation with our geographic 
constraints has to have if we wish to be influential, thousands 
of miles from our shore.
    Because of the nature of the threat and the obvious desire 
of strategists around the world to try and keep naval forces 
from being able to generate significant power near their 
shores, because they are trying to keep the carrier away--
further away, as Mr. Brimley was talking about, we have to 
counter that.
    If we do not counter that in a way that continues the 
relevance of the aircraft carrier as our Nation's primary 
power-projection platform, we either have to acknowledge the 
end of American naval dominance or we have to figure out some 
way to replace that power projection.
    I don't know what that is. I don't know--I don't know 
another platform or series of platforms or ensemble of 
platforms in the Navy that could--for the amount of time that 
an aircraft carrier can generate power that could match it. It 
is one of the reasons we build them and operate them, is 
because they are very efficient producers of combat power.
    I don't have a good answer for you on the first part of 
your question.
    Mr. Forbes. Mr. Langevin, like Mr. Courtney, has spent a 
lot of time looking at this issue and other naval issues, and 
we would like to recognize him now for 5 minutes
    Mr. Langevin. Thank you, Mr. Chairman. I want to thank our 
witnesses for being here today, and I apologize with the votes 
and all that. I may have, some of my questions, I hope they are 
not redundant, but I need to have these answers, and I would 
appreciate any insight you could give us. Again, thank you for 
your testimony.
    Mr. Chairman, I appreciate the committee's attention to 
this very important program, and I thank you for the attention 
that you have given to this, and I, again, thank our witnesses 
for their insights in appearing before us this afternoon. As 
you highlighted in your testimony, this is a debate not about a 
program really but about the future of carrier-based aviation. 
The overall pattern of unmanned systems has been initially the 
description, the substitution of such systems for the three 
Ds--the dull, the dirty, and dangerous--if you will. And 
certainly persistent ISR is dull, though vitally important, 
which is why, of course, we have Global Hawks and Reapers and 
Predators, Fire Scouts, and other systems focused on that ISR 
mission. So my concern is that unless the Navy asks industry 
for the right capabilities, we could preclude right at the 
outset UCLASS's ability to stand in for manned aircraft for 
future dangerous missions such as ISR, denied environments, or 
initial strikes to take down integrated air defense systems and 
heavily defended targets.
    We are here today to make sure what could be a truly 
revolutionary capability for the future air wing achieves its 
full potential. So my first question is, could you talk to the 
subcommittee, could you talk us through the design tradeoffs 
that will be necessary should the current unrefueled 
persistence requirement stay as is, and what options would be 
available to air vehicle designers if it was lowered? I will 
start right down the line.
    Mr. O'Rourke. I will just make a general comment that any 
one platform exists within an envelope of tradeoffs and that 
there are certain characteristics that can be achieved only to 
a certain degree in the presence of other characteristics, so 
range and endurance would be one. Payload would be another. 
Stealth and survivability would be a third. And cost would be 
one. And that and maybe one or two other attributes would 
establish a zone or an envelope within which you would make 
these kinds of tradeoffs. I am going to stop right there and 
let the other witnesses answer it in more detail.
    Mr. Langevin. Thank you.
    Mr. Martinage. I like to think about the design trade for 
carrier-based UCAV to really be driven by one--in all cases, it 
has to be able to operate off the carrier, which constrains its 
size.
    But beyond that, think of a triangle, where you have 
unrefueled endurance on one corner, payload, mission payload, 
including strike payload, as another corner, and then 
survivability as a third corner. Anything you do to any one of 
those affects the other two. So when you say 14 hours of 
unrefueled endurance as one of those three parameters, you 
necessarily have to reduce what you might otherwise do in terms 
of survivability, and mission and strike payload. So the 
implication, to directly answer your question, sir, is the 14 
hours of unrefueled endurance forces reductions or increases 
signature or reduces stealth and reduces payload in all its 
forms, including volume.
    If you relaxed that 14 hours of unrefueled endurance, you 
could significantly improve stealth, which would get us into a 
classified conversation which we can't go into, but there is a 
lot more you can do there. And you could probably triple or 
quadruple the payload. And that payload doesn't have to be all 
used at once. That can also be your growth for the future in 
terms of size, weight, power, and cooling for new mission 
systems, new sensors, new weapons that you might want to 
integrate into the airframe in the future. But if you don't 
have that margin built in, in terms of mission payload 
capacity, you can't grow the aircraft in the future. I hope 
that answers your question.
    Mr. Langevin. Thank you.
    Mr. Brimley. I would just add, Congressman, I very much 
agree with my colleagues' statements. I would just say the 
number one operational challenge facing force planners, defense 
planners, the Commander in Chief, is do I have the option to 
penetrate an adversary's anti-access/area-denial network and 
hold that risk, their capabilities. And so as a civilian policy 
analyst, that is the number one operational challenge that I 
would ask the Navy to prioritize, and I think if you do that, 
you prioritize strike capacity, stealth, payload. Probably the 
last priority is really unrefueled endurance because that 
forces you to make all sorts of other compromises.
    So I would ask, perhaps in your next panel with our Navy 
colleagues, you know, what kinds of design benefits could there 
be if you prioritize the strike side, the strike and stealth 
aspects of this design? I think that would open up all sorts of 
other possibilities that, frankly, would give better options to 
civilian leaders if we were actually to engage in some sort of 
conflict, or at the very least pose a more credible deterrent 
capacity overseas.
    Mr. Langevin. Thank you.
    Mr. McGrath. Mr. Langevin, I cannot improve upon those 
answers.
    Mr. Langevin. Thank you. My time is expired. I do have 
other questions, but I guess I should submit those for the 
record, Mr. Chairman?
    Mr. Forbes. If you don't mind, Jim, we are going to submit 
a group of them for the record, and we would love to have your 
questions in there.
    Mr. Langevin. Very good, Chairman.
    And I thank our witnesses for their insight and testimony.
    And I yield back.
    Mr. Forbes. Mr. Courtney, did you have----
    Mr. Courtney. Just really quickly. One of the tradeoffs if 
you give up unrefueled persistence and reduce the thousand 
pounds to a lower weight, you are also creating another sort of 
challenge, aren't you, in terms of needing to have a refueling 
capability, which I guess the question is are we good to go as 
far as having that for unmanned air systems? I mean, that 
sounds like a whole new set of challenges, isn't it, in terms 
of making that work?
    Mr. Martinage. Well, the first thing I would say is 8 to 10 
hours of endurance is still a long combat radius, so somewhere 
around 1,700 to 2,000 nautical miles, which is roughly triple 
every other aircraft on the carrier deck. So that is a pretty 
big operational reach improvement for the carrier air wing.
    In terms of unmanned air-to-air refueling, that has been 
demonstrated already by surrogate aircraft as part of the UCAS-
D program. Air Vehicle II is plumbed to do air-to-air 
refueling. It was originally part of the UCAS demonstration 
program. I don't know if the Navy is going to go forward with 
that, but I would say the technology is pretty mature and has 
been demonstrated with surrogate aircraft already.
    Mr. McGrath. Sir, there was an open source report earlier 
this week, and I have it referenced in my written testimony--I 
don't remember exactly where it was--but where the Northrop 
Grumman program manager for UCAS says that they are prepared to 
demonstrate it during summer testing on board USS Theodore 
Roosevelt, and the UCAS Navy program manager indicated that 
if--excuse me. The contract has a provision in it, a clause in 
it, to do this. Northrop Grumman says they are ready to show 
it. The Navy program manager indicated that they were looking 
at trying to get to that, so we will have answers to these 
questions probably this summer, this coming summer.
    Mr. Forbes. And if I could just end with one question, kind 
of a follow-up on what Mr. Courtney's is, I don't think there 
is a question that we have the capability to refuel, but the 
problem that I think Mr. Courtney may be getting at, too, is 
you would need a tanker or something to do it, which means we 
would have to have another asset there to do that, which is at 
least a question for us to raise.
    But if you look at this triangle that, Mr. Martinage, you 
correctly raise between endurance and payload and stealth, if 
we had to pick a priority between those three things, what 
would the priority be, one? And, number two, if we continue in 
the direction that the Navy is heading, which is primarily an 
ISR asset, does that provide any additional capability than 
what the Navy already can do? And I would love to hear your 
responses on any of the four of you if you could address either 
of those two questions.
    Mr. O'Rourke is looking at you, so I think he is----
    Mr. Martinage. I will start. I will start. In terms of the 
triangle, sir, I would, frankly, push back and say I wouldn't 
pick any one of the three. I would pick all three. And I would 
pick a balance of the three that allow it to perform the 
operational mission that I mentioned at the beginning, which is 
projecting power from range from the carrier, ISR and strike, 
in anti-access and area-denial----
    Mr. Forbes. So then maybe if I could rephrase my question, 
not to compound it but to get an answer, you would say that the 
number one mission that you believe the UCLASS needs to be 
doing is the projection of that power through A2/AD defenses. 
Is that fair?
    Mr. Martinage. That is fair, and I would say the way I 
would prioritize it is that first thing, the aircraft needs to 
be able to go find and hit a target without being shot down. So 
what that means fundamentally is you need a certain level of 
stealth and the right weapon to hit the target and the right 
sensor to find the target. That is one.
    Then, two, I want to have enough operational radius from a 
tanker or a carrier that I can do that from some reasonable 
range. I think 1,000 miles would be a good figure to put down. 
And then, third, I would want as many weapons and as many 
different kinds of weapons as I could fit into that aircraft. 
So that would be my hierarchy: find and kill targets without 
being shot down, do it at range, and have has many weapons in 
the magazine and different kinds of weapons as possible.
    To answer your second question, sir, about what additional 
would this type of aircraft provide, it would provide the 
carrier strike group commander a long-range, long-persistence 
ISR asset for maintaining maritime domain awareness around the 
carrier battle group and then potentially finding targets for 
the manned air wing.
    Mr. Forbes. That they could not do today?
    Mr. Martinage. No. No. I think that the MQ4C Triton, which 
is land-based, could do that mission, but that carrier strike 
group commander would tell you that is not organic to me. I 
can't control it, so I want something that I can control.
    Mr. Forbes. That is a fair statement.
    Mr. Martinage. And then the other option that the Navy 
could pursue is things like MQ-8B/C Fire Scout off of any air-
capable ship, so including all the destroyers and so forth; 
that has a potential of 8 to 12 hours endurance, and it could 
do maritime domain awareness around the carrier battle group 
that way. To me, that would be a much more effective and 
affordable way to get that ISR, rather than dedicating what 
really should be an integral part of the carrier air wing in 
the future for ISR and strike.
    Mr. Forbes. Good.
    Mr. Brimley.
    Mr. Brimley. Sir, I would just step back for a second, and 
if I could just make a broader strategic comment. Of course, 
the primary decision calculus here and for this committee and 
for the Navy and for the Pentagon ought to be, how can we make 
sure that the carrier strike group is relevant in the conflicts 
of the future?
    But I think the broader strategic dynamic is concerning. We 
are only at the beginning stages of a revolution in unmanned, 
in increasingly autonomous systems. More than 75 nations are 
now investing in this kind of technology. And the proliferation 
dynamic is happening, and it is happening quick. As an analyst, 
what concerns me is if we spend 5, 6, 7 years walking down this 
path of making marginal improvements via an unmanned system to 
organic ISR for the carrier, that is time and money we are not 
spending in maintaining our military technical dominance and 
advantage in these early stages of what I think will be a very 
disruptive shift in the global military balance of power.
    So I see this as a window of opportunity, and it is a 
finite window of opportunity. I am not a technical expert, but 
it strikes me that we ought to make sure that we spend the time 
necessary to get these requirements right before we start 
walking down a path that will close doors for us potentially 
and potentially undermine our military technical power.
    Mr. McGrath. Chairman Forbes, any strike group commander 
would love to have more ISR around his or her strike group. I 
mean, it is security. It is safety. It is knowing what is 
around you. The question is, do we have an adequate supply of 
platforms to provide that today? Especially when you have zero 
platforms today that can penetrate at the ranges we are talking 
about that make them operationally relevant in a contested A2/
AD environment. This argument that the Triton and the P-8 
aren't organic is interesting, but neither is most of the fuel 
that strike group commander is going to use in a campaign. It 
comes from the Air Force and tankers that fly and are in tanker 
tracks. I mean, there is some tanking on board the carrier, but 
a good bit of that campaign-level tanking will come from 
somewhere else. So I am not sure why the ISR coming from 
somewhere else is that big of an issue. We need the strike.
    Mr. Forbes. Gentlemen, thank you so much for sharing your 
thoughts with us, helping us to create the questions we need to 
be asking and those answers, and we appreciate your time. 
Again, as we have apologized to you for these votes that 
delayed us, but we look forward to picking your brain in the 
future. And as Mr. Langevin pointed out, we have a number of 
Members who have some questions they will be submitting to you 
if you don't mind submitting those back for the record.
    And with that, this panel will be--do any of you have any 
comments that you would like to briefly offer for the record?
    Mr. McGrath.
    Mr. McGrath. I would just like to deal with one of the 
counterarguments, and I hear this from very serious people. And 
that is if you want another acquisition nightmare--and they 
compare it to, you know, you name it--go down the path that you 
are headed in, that we want to go in. And what bothers me about 
that is there is this implicit sense that we cannot do hard 
things well anymore. I think that is just not true. I think 
hard things are hard, and we cannot rush to a mediocre set of 
requirements out of fear that we can't do better. And I think 
this committee's leadership on this and continued pressure to 
try to ensure that we do better is required.
    Mr. Forbes. Thank you.
    Mr. O'Rourke.
    Mr. O'Rourke. Just two quick comments. Returning to 
Representative Courtney's earlier question about refueling, the 
solution that we reach, whatever it is, is something that I do 
think we need to consider in relation to the current refueling 
burden on the carrier. The carrier's own organic refueling 
ability does influence the range at which it can operate, 
especially in situations where it might be far away from land-
based refueling. And I don't know what the impact is of various 
decisions on UCLASS in terms of the net burden on the carrier's 
organic refueling ability, but more than one of the people that 
briefed me from the Navy and industry did bring this up. So 
that is, I think, a factor that needs to be considered in the 
overall situation. And that's neutral as to the outcome of 
UCLASS, but from a system of systems point of view, what is the 
net impact on the refueling situation of the carrier, which 
influences its combat radius.
    And the second, Mr. Chairman, goes to your question about 
the triangle and where we should be inside of it. I tend to 
think of it as a square rather than a triangle, because I think 
cost is the fourth factor. If you freeze the money that is 
available at a certain point and take it out, then you are 
possibly constraining the ability to imagine what the plane 
might be or what you might be able to achieve. So I see the 
trade space as having four corners, the fourth corner being a 
variable relating to the funding that is available for the 
program. And in terms of where you wind up inside that trade 
space, it is my hope that the six questions that I outlined at 
the outset will help people to think that issue through.
    Mr. Forbes. Good. I am sorry.
    Mr. Martinage.
    Mr. Martinage. Mr. Chairman, I would just like to follow up 
on a point Mr. McGrath made, and that is a point that has sort 
of been implicit to a lot of this conversation, is that a more 
balanced, more capable UCAV is somehow going to be more 
expensive and higher risk. I would just like to push back on 
that. When it comes to stealth/low-observables, it is more a 
choice about shape and propulsion path than it is about cost. 
Yes, there are marginal costs with the edges and coatings and 
sensor integration, but they are marginal. The big choice is 
where you go with the shape and the propulsion path of the 
aircraft. And that affects aerodynamic performance and other 
things, but it is not so much a cost driver. You tend to pay 
for these aircraft by the pound, regardless.
    And the second thing is the technologies to achieve a 
balanced design, from low-observables and stealth to the 
payload capacities we have talked about to the combat radiuses 
that we have talked about, are all low risk. They have all been 
demonstrated. So if others come in here and say, Well, this 
type of LO [low-observables], or this type of LO across this 
frequency spectrum hasn't been demonstrated, it is just not 
true.
    Mr. Forbes. And, Mr. Brimley, we will let you have the last 
word.
    Mr. Brimley. Well, sir, I guess on behalf of my colleagues, 
thank you for holding this hearing. I think there are--at least 
most of us I am sure agree, this is probably one of the top 
three to five defense design strategy procurement issues that 
are facing the Nation and the joint force writ large. Thank you 
for identifying this and zooming down on it.
    One final point, as I think most of us outlined in our 
written testimony, the need to be able to pose operational 
challenges, to be able to penetrate anti-access and area-denial 
networks, is something that has been consistently enumerated 
since at least the 2006 Quadrennial Defense Review. So it is 
not as though this requirements debate is new. It is not as 
though this challenge facing the Nation and facing the joint 
force is in any way new. So I think, at least from my 
perspective, I find myself being able to draw on a pretty rich 
history in terms of the need to be able to set design 
requirements to be able to posture the joint force to be able 
to succeed in the future security environment.
    And finally, just to echo what my colleague just said, you 
know, that plane that landed on the aircraft carrier last year 
was a certain shape and a certain design specifically because 
in the very beginning of this program, those kinds of design 
features were prioritized. And so I think, even from a joint 
force-Navy perspective, not so long ago, the three of us and 
our views, that was the view of the Pentagon. That was the view 
of the U.S. Navy. So I don't think that we are advocating sort 
of a technological fantasy or some kind of argument that isn't 
well within the mainstream of where force designers and 
planners have been for a long period of time.
    Mr. Forbes. Gentlemen, thank you so much again for your 
time.
    And with that, we will recess for the next panel.
    [Recess.]
    Mr. Forbes. Gentlemen, if you would have a seat.
    I am sorry to detain you for these votes, but thank you for 
your patience. We have already given our opening statements 
earlier. We won't bore you with having to listen to those 
again, so we are going to go right on to your opening comments, 
any that you would like to provide, and I take it we will go in 
the order that you are seated, so with that, Admiral, we will 
turn it over to you.

 STATEMENT OF VADM PAUL A. GROSKLAGS, USN, PRINCIPAL MILITARY 
     DEPUTY, ASSISTANT SECRETARY OF THE NAVY FOR RESEARCH, 
      DEVELOPMENT AND ACQUISITIONS, DEPARTMENT OF DEFENSE

    Admiral Grosklags. Thank you Chairman Forbes, 
Representative Courtney. Thank you for the opportunity to 
appear before you today to talk about the Navy's UCLASS 
program.
    I need to start just by saying that the Navy is fully 
committed to the development and rapid fielding of an 
affordable persistent intelligence, surveillance, 
reconnaissance, and targeting, or IRS&T system, with a 
precision strike capability. The system will be based on an air 
vehicle design which ensures that we meet our threshold 
capabilities while being optimized to enable future mission 
capability enhancements, particularly in the areas of sensor 
payload modularity, weapons payload, and mission effectiveness, 
sometimes put under the moniker of survivability. The UCLASS 
key performance parameters and key system attributes, as 
defined and documented in the Service Approved Capabilities 
Development Document, remain consistent and stable.
    That document was signed over a year ago by the Chief of 
Naval Operations and has not changed. The accompanying UCLASS 
acquisition strategy requires offers to be compliant with all 
the threshold requirements defined in a CDD [Capability 
Development Document] at a not-to-exceed cost per orbit, while 
incentivizing industry to propose systems and solutions that 
enable those future improvements and enhancements. More 
specifically, those proposed air vehicle solutions will be 
required to show basic design parameters that support the 
future growth, designs that can be affordably modified and 
enhanced over time to meet the future multi-mission needs of 
both the Navy and the joint force without major aircraft 
redesign.
    We are on a path to achieve this growth capability without 
sacrificing the affordable near-term persistent ISR capability. 
We have had 4 years of very close engagement with industry, 
including technology maturation contracts which have culminated 
in the recently completed preliminary design reviews for four 
candidate solutions. This close engagement has provided the 
Navy with significant insight into industry capabilities which 
results in our confidence that affordable, technically 
compliant UCLASS design solutions are achievable within the 
targeted timeline and which take into account the plan form, 
the air vehicle plan form shape, and propulsion path 
characteristics that are needed to ensure that we can grow to 
the capabilities mentioned earlier.
    It is also important to note that UCLASS will be a 
complementary and enhancing part of our carrier strike group. 
As part of the air wing, it supports the joint force and the 
Navy across our full range of military operations. UCLASS will 
make our carrier strike groups more lethal, more effective, and 
more survivable. I looked forward to your questions.
    [The joint prepared statement of Admiral Grosklags, General 
Guastella, and Mr. Andress can be found in the Appendix on page 
101.]
    Mr. Forbes. Admiral, thank you.
    Mr. Andress.
    Mr. Andress. I am going to let General Guastella go next if 
that is all right, sir.
    Mr. Forbes. I think that would be a wise decision. General.

    STATEMENT OF BRIG GEN JOSEPH T. GUASTELLA, USAF, DEPUTY 
          DIRECTOR FOR REQUIREMENTS (J-8), JOINT STAFF

    General Guastella. Chairman and Representative Courtney, I 
appreciate the opportunity to come and testify today as well. I 
work for the Vice Chairman. I facilitate the JROC [Joint 
Requirements Oversight Council] process. And as many of you 
know, the JROC establishes requirements for our warfighting 
needs. The UCLASS requirements have been established by our 
most senior warfighters. They are the individuals that are 
responsible to organize, train and equip, not just their 
services but the entire joint force. All the services are 
represented at the JROC.
    They established the UCLASS requirements not by looking 
through the lens of just the UCLASS system, but they evaluated 
the entire joint portfolio of ISR and strike assets to set 
these requirements, and certainly the JROC highly values 
carrier-based or sea-based ISR and strike platforms.
    So I would like to read a sentence or two from the JROCM 
[Joint Requirements Oversight Council Memorandum], written on 
the 19th of December of 2012: And the requirement for UCLASS is 
for an affordable, adaptable platform that supports missions 
ranging from permissive counterterrorism operations to missions 
in low-end contested environments to providing enabling 
capabilities for high-end denied operations as well as 
supporting organic naval missions. Essentially that requirement 
strikes a balance between affordability and performance.
    And like I mentioned earlier, you cannot look at the UCLASS 
requirement through a single lens, but only as you look at it 
how does it fit into a joint portfolio of assets, from 
permissive air-breathing to more advanced air-breathing assets 
to include space-based assets. Where is its role in there? And 
that is how those requirements were derived. While this is an 
open hearing, sir, if you need us to come by later and discuss 
some of the other systems or performance parameters, we are 
happy to do that. Sir, pending your questions.
    [The joint prepared statement of General Guastella, Admiral 
Grosklags, and Mr. Andress can be found in the Appendix on page 
101.]
    Mr. Forbes. General, thank you.
    Mr. Andress.

 STATEMENT OF MARK D. ANDRESS, ASSISTANT DEPUTY CHIEF OF NAVAL 
              OPERATIONS FOR INFORMATION DOMINANCE

    Mr. Andress. Yes, sir. Thank you for the invitation to 
speak. As the resource and requirements sponsor for UCLASS, it 
is very satisfying to be here and see such strong advocacy for 
one of our programs. I would say it is even beyond just the 
advocacy for unmanned sea-based ISR and strike. It is a desire 
for more. It is a desire for more weapons payload. It is a 
desire for more unrefueled or lower unrefueled range. It is a 
desire to add non-organic tanking to those requirements, and it 
is a desire for greater stealth. All these are great 
capabilities that we have captured and assessed through our 
requirements review process over the last 4 years.
    I am perhaps more appreciative of the subcommittee's desire 
to look for answers that balance this demand for increased 
growth on a program, which we can talk about tradeoffs in 
performance and capabilities, but those tradeoffs in 
performance and capabilities in and of themselves have to be 
balanced by cost, schedule, and technical risk. I believe the 
answer that we are seeking for is that the Navy, working with 
the Joint Staff, have balanced not only the capabilities 
tradeoff desired, but balanced these capabilities against the 
cost, schedule, and technical risk we need to succeed.
    As I go into the rest of my opening testimony, I want to 
highlight that I am going to only be able in an open hearing to 
talk to you about the process we use as we go through 
requirements building, and I will be happy to come back and 
talk to you more about specific threats, sensors, and others 
that are rolled into the requirements capabilities.
    Mr. Forbes. Mr. Andress, could I ask if you could suspend 
your opening remarks for just 1 minute.
    Mr. Courtney, do you have any questions that----
    Mr. Courtney. I just found out my appointment just 
cancelled.
    Mr. Forbes. I am sorry. Mr. Courtney was going to have to 
leave, and I wanted to make sure he got his questions.
    Mr. Andress, I am sorry to interrupt you. Please go ahead.
    Mr. Andress. No problem. So, as General Guastella has 
pointed out, I am going to go into the requirements and how we 
float the requirements from start to finish. I am going to talk 
to you about the missions that those are trying to achieve, and 
I am happy to follow up with more specifics on the threats and 
the parameters that we are trying to target with UCLASS.
    So UCLASS will be permissive ISR and strike in the near 
term as we have prioritized getting this initial capability to 
the fleet and operating off a carrier in a technically viable, 
timely, and affordable manner. But the overall system must be 
able to operate in a contested environment and support high-end 
operations in the 2020s and beyond to pace the threats we 
believe will be present as part of the larger carrier air wing.
    I want to make sure that you understand the depth of 
requirements analysis that has gone into this very high-level 
requirements statement. The fundamental gap that the program is 
bringing came from a capabilities-based assessment looking 
across not only the future carrier air wing of 2025 and beyond, 
but we also looked at the carrier air wing operating in a joint 
environment. The gap that was most prevalent from running 
multiple scenarios is persistent ISR and strike from the sea 
base. That capabilities-based assessment led to what we call an 
initial capabilities document. This document is endorsed by the 
Joint Staff, and it specified a range of tactical scenarios in 
which we will need this program to operate. These scenarios 
have been reviewed and endorsed repeatedly over the last 3 
years. They have not been static. They have been revisited not 
only from the standpoint of the threat scenario. They have been 
revisited with the Intelligence Community to look at what is 
the evolving threats that it must face? What are the ranges? 
What are the frequency bans? What are the distance we must be 
at? So that has not been a static process. It has been a 
recurring process leading up to this RFP.
    The scenarios, and we call them design reference missions, 
begin with permissive ISR and strike and then move into 
contested ISR and strike against littoral threats. Think of 
this as small boat threats to naval forces. Next is contested 
ISR and strike against coastal land-based threats. Think of 
this as coastal defense cruise missiles, other emerging 
threats. And finally, anti-surface warfare scenarios. Think war 
at sea against near-peer adversaries. These design reference 
missions also include the need to both give and receive aerial 
refueling.
    These scenarios which are based on how the COCOMs 
[combatant commands] intend to fight and win in the next 
decade, drove the right balance of endurance, sensors, weapons, 
and self-protection for UCLASS as a member of a carrier strike 
group that in this timeframe will include Joint Strike Fighter, 
E2D, and Growlers equipped with next-gen [generation] jammer 
capabilities. The Navy made the decision to field these 
capabilities in increments primarily based on cost, schedule, 
and technical risk. Through extensive engagement with industry, 
we believe the incremental approach can be achieved while 
maintaining relevance against the threats to carrier air wing 
in 2025 and beyond. Thank you.
    [The joint prepared statement of Mr. Andress, Admiral 
Grosklags, and General Guastella can be found in the Appendix 
on page 101.]
    Mr. Forbes. Mr. Courtney, I am going to yield to you in 
case you have to leave. I appreciate you staying to ask your 
questions.
    Mr. Courtney. Thank you, Mr. Chairman. I appreciate your 
courtesy again. That conflict evaporated. So I want to thank 
the witnesses for your testimony.
    Admiral, I think I counted the words ``modification,'' 
``enhancement'' and ``growth'' probably about four or five 
times during your remarks and echoed in the other witnesses, 
and that, as you may have heard from the prior panel, I mean, 
was sort of a big focus of the discussion, which is just, you 
know, some of the witnesses were sort of posing the next step 
as almost this irrevocable decision. And, you know, I just 
wonder if you could just sort of maybe talk about that a little 
bit more about whether or not you think that the persistent 
non-refueling priority is something that is going to lock us 
into, you know, a system that can't sort of achieve sort of the 
goals of strike capacity that I think everybody agrees would be 
good for the country. So, again, I was wondering if you could 
comment on that?
    Admiral Grosklags. Yes, sir, and I will probably ask the 
requirements officer, Mr. Andress, to tag in as well.
    And we have been very, very careful as we have built the 
request for proposals and flowed the requirements from the 
capabilities description document or development document down 
into a detailed specification to try and ensure that industry 
understands that we need a solution that can grow to future 
mission roles over time, should the Navy and the joint force 
decide to implement those. It is technically achievable. We 
have seen the designs that industry is likely to offer us 
through the preliminary design review [PDR] process. That 
report out of the PDR process that is required by NDAA 
[National Defense Authorization Act] language from a couple of 
years ago I believe you will see if not late this month, early 
in August. It does certify that those PDRs were complete. They 
were in accordance with the process. But the net result of 
that, from our perspective, was along with 3 years of very 
close observation of what industry can offer, we know that 
there are technical solutions out there that provide us the 
capability to grow to a more survivable--read low-observable--
platform if we decide to go down that path.
    There are things that we need industry to bring on day one 
in order to ensure that that is possible. We have seen that in 
their designs already, so we are comfortable that we can get 
there. We have also asked them to look at additional payload in 
terms of weapons, and we have asked them or required them to 
bring to us on day one additional capacity opportunity beyond, 
and I don't want to go into too much detail of source selection 
criteria, but additional capacity beyond the 1,000 pounds that 
was talked about earlier. The threshold requirement remains 
that 1,000 pounds on day one. That is our early operational 
capability. It is also important to point out that the aircraft 
is required to have two external 3,000-pound hard points which 
can carry fuel for refueling other aircraft. They can carry 
other weapons. They can carry other sensor pods for a variety 
of missions. We are ensuring that all of these capabilities or 
enhancements for growth capability are built in on day one. We 
don't intend today to implement all of those because we don't 
know where the requirements of the future will necessarily take 
this platform, but we want to ensure that it is not a dead-end 
solution for the carrier or for the joint force, that it is a 
very adaptable solution that can be incrementally grown in 
capability into the future, and we believe the requirements 
support that and our acquisition strategy that industry will 
see through the request for proposals reflects that as well.
    Mr. Andress. I could add to that from the requirements. We 
spent a lot of time in the analysis of alternatives looking 
through unrefueled persistence. We analyzed 8-hour. We analyzed 
10-,
12-, 14-hour, and 24-hour endurance models. We viewed these, 
all the time we view these through those design reference 
missions. It is against the targets they have to kill, where 
the aircraft needs to be, how far it needs to be from the 
carrier, et cetera. And we assessed that against mission 
effectiveness, but we also looked at technical risk and cost. 
And so while I will need to be able to come talk to you about 8 
and 14 hours from the mission effectiveness in a more 
classified setting, I can certainly talk to you in this setting 
about cost, which was a huge driver in the AOA, and some of the 
technical risks.
    Twenty-four hours of endurance is, while the most cost-
efficient, introduced unacceptable technical risk to one of our 
top performance criteria, which is carrier suitability. This is 
mostly driven I think by wingspan, payloads, and things like 
that. Eight hours endurance introduced by far the highest 
lifecycle cost of all the alternatives by a margin of over four 
to one. Fourteen hours, when you looked at the difference 
between 8 and 14 hours from a development standpoint and 
introduced negligible technical or cost risks, so the 14-hour 
requirement facilitated the optimal balance to achieve two 24 
by 7 orbits at 600 nautical miles from the carrier or one orbit 
at 1,200 nautical miles from the carrier or a single strike 
mission--that is an orbit, persistent, 1,200 miles--or a 
single-strike mission at over 2,000 miles from the carrier. So 
we are very comfortable with the unrefueled requirement as it 
sits and that it doesn't limit our ability to grow to objective 
requirements across the other balances of weapons, 
survivability, et cetera.
    Mr. Courtney. One other question. Again, obviously the 
House has acted with the Defense Authorization Bill for 2015 
and, again, had the additional review that was included in the 
language. I mean, at this point the classified RFP is, I mean, 
that is imminent. Right? Is the game plan pretty soon in terms 
of when that is going out?
    Admiral Grosklags. Yes, sir. In fact, the Defense 
Acquisition Review Board that was planned to make the decision 
for the release of that document was scheduled for next Monday. 
The Deputy Secretary of Defense asked for a precursor meeting, 
and because several of the principals were out of the country 
this week, that meeting and the subsequent DAB were postponed 
until next week. It is our expectation they will both happen 
next week, and the RFP release would follow that second 
meeting.
    Mr. Courtney. I mean, at this point, if the law or the bill 
passes as written by the House--I mean, there is assessment 
requirement. I mean, is that something that you will just have 
to--I mean, obviously, it is the law. But I mean, it doesn't 
conflict necessarily with that RFP already having been 
released. Right? You are just going to have to comply with it 
as written.
    Admiral Grosklags. No, sir, it does not conflict with 
releasing the RFP.
    Mr. Courtney. Thank you.
    I yield back.
    Mr. Forbes. Thank you, Mr. Courtney.
    Admiral, I want to come back. Mr. Courtney was exactly 
right. We heard three words, ``modification,'' ``enhancement,'' 
and ``growth,'' by everybody, but there was another word we 
heard from everybody, too, which is ``affordability.'' Could 
you help me with the definition of affordability, because that 
seems like something you guys really want to get across, 
affordability? Between an aircraft carrier and an LCS [Littoral 
Combat Ship], which one is most affordable?
    Admiral Grosklags. I am not sure I can crisply answer that 
question.
    Mr. Forbes. And the reason you can't answer it is because 
it depends on the mission that you want to accomplish. Isn't 
that true?
    Admiral Grosklags. Absolutely, sir.
    Mr. Forbes. So if you are looking at a UCLASS, we can get a 
very cheap UCLASS platform if we just reduce down the 
requirements. The key for us is making sure we get the right 
mission that we want the UCLASS to accomplish. Is that a fair 
statement?
    Admiral Grosklags. Yes, sir, I think it is important that 
we get the correct requirements upfront, and that is where this 
program started, with the correct requirements.
    Mr. Forbes. Can you help me with this part, too? You 
indicated to us that this document was signed a year ago or 
longer. Is that fair?
    Admiral Grosklags. The capability development document, or 
CDD, was signed in April of 2013 by the CNO. It is a Navy 
document at this point.
    Mr. Forbes. The reason I ask that is because we had 
testimony by several individuals in our previous panel, 
including Mr. O'Rourke, who we put a lot of credibility in as 
kind of the historian that we look to for the CRS 
[Congressional Research Service], who says that there have been 
world events that have developed in the last year, including 
China's actions, the Russians and Ukraine, that perhaps would 
give a pause to look and see if the strategic look that we had 
at this program a year ago might not have changed in the event 
of world events. Do you think Mr. O'Rourke was wrong in his 
analysis?
    Admiral Grosklags. Not having seen his entire analysis, I 
don't think he is incorrect in that we have an obligation, 
frankly, to continue to look at our requirements over time to 
see if they are, in fact, evolving or need to evolve to meet 
any new threats.
    Mr. Forbes. Would it be fair of this committee or 
subcommittee if we were to simply say that we have had certain 
events that have taken place in the last 12 months that have 
dramatically changed some of the ways that we look at our 
strategic goals around the world?
    Admiral Grosklags. I would say that is correct. I would 
also comment that we have continued to look at the--while they 
have not changed--we continue to look at the requirements for 
the UCLASS program. And, again, one of the key aspects is that 
we are building in that ability to adapt this platform to 
missions of the future, regardless of what they may be as long 
as they fit in the earlier discussion that we had.
    Mr. Forbes. And I want to address those. I want to also 
then come back to what you just said. You don't fault this 
subcommittee for saying that, based on those changes, since you 
have just said that you need to continually be looking at those 
requirements, you don't fault this subcommittee saying before 
we pour the concrete and start heading down this very expensive 
program, that we should perhaps measure twice and cut once to 
make sure we get it wrong--right, and to make sure that the 
Secretary of Defense has a second look at it?
    Admiral Grosklags. Sir, I will let the requirements folks 
talk to that specifically, but I believe we have measured at 
least twice. We continue to measure, and in fact, over the last 
weeks, the Joint Staff and the Navy have continued to look at 
these requirements and, frankly, from my perspective, continue 
to validate what we have.
    Mr. Forbes. I am going to give you plenty of opportunity to 
respond to that. First of all, I want you to know, I don't want 
you to talk about anything that is classified, and we know we 
have got all of that in our logistics. But we have heard the 
previous panel talk about this 14-hour time period.
    Mr. Andress, I think you just mentioned that, and you said 
there was no technical risk or cost difference if we went from 
8 hours to 14 hours. Did I understand that? Or marginal, maybe 
your word was ``marginal.''
    Mr. Andress. No. You misunderstood. The cost risk of going 
from 14 to 8 is dramatic. It includes both cost from fuel, cost 
from fuel burdens for tankers. It includes costs for additional 
integration. Now, remember, you are an unmanned system, so now 
you have to integrate the system that you will refuel with in 
the unburdened tankers. All those now have to map to those 
tankers.
    Mr. Forbes. So the cost of having 8 hours versus 14 hours.
    Mr. Andress. Is enormous.
    Mr. Forbes. Much more expensive.
    Mr. Andress. Dramatically. Like I said, it is more than 
four times.
    Mr. Forbes. So that is why you would like to lock into the 
14 hour----
    Mr. Andress. That is not the only reason, sir. Cost was one 
factor, and we locked in the 14 hours at both threshold and 
objective. It doesn't need to change to achieve our contested 
high-end operations that we get at the objective requirement. 
It does not need to be 8 hours refueled when combined with 
those other capabilities, which are weapons, sensor, sensor 
range detection, survivability, et cetera. So I highlighted 
lifecycle cost because it drove a lot of the analysis of 
alternatives as we look to where and when this thing needs to 
operate in the dependencies.
    Mr. Forbes. I think that is fair. Just like our LCS and 
carrier example, it is much more expensive to operate a 
carrier. Since we now have 14 hours that we are talking about, 
and we can at least talk about that figure, would you also 
agree that if you do lock into that 14 hours, that you have 
significantly limited the amount of payload that you could 
expand to at a foreseeable time given the platform that you 
would have?
    Mr. Andress. No, sir. We are not limited by the payload, 
the growth in the platform as we go from threshold 
requirements, permissive to the contested and high end.
    Mr. Forbes. So then you would say that when we talked about 
that 1,000-pound payload factor, you would say that is 
inaccurate, that you could go much higher than that 1,000 
pounds and still have that 14-hour endurance requirement?
    Mr. Andress. Absolutely, sir, and that is specified in the 
threshold to objective requirements that Admiral Grosklags has 
testified we would be able to achieve.
    Mr. Forbes. Ok, now let me ask you this. If you look at in 
light of what I at least understand to have senior level 
guidance about the growing need to project power despite A2/AD 
challenges in the past four QDRs and in the Presidentially 
approved Defense Strategic Guidance, why did the JROC change 
UCLASS requirements away from the A2/AD last fall?
    Mr. Andress. I am not aware that the JROC changed the 
requirements away from it.
    Mr. Forbes. Were the requirements changed? I am sorry. I 
didn't mean to interrupt you.
    General Guastella. Sir, the requirements have grown over 
the 3 years. They have been looked at. Actually, the JROC, in 
terms of your question before about measuring how many times, 
the JROC has looked at the UCLASS requirements six times over 
the last 3 years. Sir, most recently, the 4th of February it 
was looked at again, so very recently, especially in light of 
current events.
    And like I mentioned before, sir, and as you have said, the 
world is more dynamic now possibly than even when the platform 
was first envisioned. The budget pressure, however, is more 
acute than ever, and a trillion dollars over 10 years is what 
we face. And so I think that the JROC is aware of that fiscal 
reality and ensured that it has been able to make--been forced 
to make performance and tradeoffs----
    Mr. Forbes. And, General, that is my point. You need to 
help us with what we need as what the mission should be because 
we have also had the Navy come over here and say they want to 
park 11 cruisers. And we said, We disagree with you. We have 
had the Navy come over here and say, We don't want to do 
another carrier. And we felt that was wrong. So when you tell 
me that we looked at different requirements and we looked at 
budget requirements, I am asking you the strategic requirements 
because, as I understand it, one of--the previous panel would 
just disagree with what you think the ultimate mission might be 
for the UCLASS. They think that one of the most compelling 
needs that we are going to have with this platform is to be an 
integrated part of our carrier wing that can penetrate A2/AD 
defenses. What I hear you saying is that it needs to be the 
sophisticated ISR capability.
    And so as I looked at the senior level guidance, we have 
heard over and over again their need to project these same 
kinds of A2/AD defenses. And so I guess my question is, not 
just based on budget or fiscal restraints, but what is it that 
caused you to change the ultimate mission goal that you had, or 
did that change?
    General Guastella. Sir, I think it is best to say that no 
asset serves a single purpose. And almost every asset in DOD 
serves the joint fight.
    Mr. Forbes. Fair. What is the primary purpose? Would you 
agree with me that I am making choices between a primary 
purpose of an ISR capability or of a platform that is capable 
of penetrating A2/AD defenses?
    Mr. Andress. I will take it. I want to go back to the 
questions about the strategic. And it is very important to note 
that UCLASS, the CDD was signed last year by the CNO, and we 
have looked at it again through the JROC just a few months ago. 
The implications are that we have a shift from this post-Cold 
War permissive only mentality and that UCLASS has missed that 
in its requirements. And what I want to assure the committee is 
that the design reference missions that I spoke of--spoke of, 
follow, first--follow the Defense Strategic Guidance, speak to 
both the permissive environment as a threshold capability but 
have the requirements and objective capability which they will 
grow to to get at the contested and supporting the high-end A2/
AD environment. Those were thought through, and the specific 
locations where the threats, the surface-to-air missiles we 
must face, the enabling factors to A2/AD were factored into the 
mission performance that UCLASS needs to meet.
    Strategically, your question was, where does UCLASS fit in 
on that? The capabilities-based assessment says that UCLASS 
provides ISR and strike at longer range from the carrier, 
ranges I just spoke to, two orbits at 600 nautical miles, one 
orbit at 1,200 nautical miles, and single strike missions at 
2,000 nautical miles. That strategic mission hasn't changed. 
The requirements have not changed. Our path to get there is 
consistent and is balanced. The capabilities are balanced 
against cost, schedule, and technical risk.
    Mr. Forbes. So, Mr. Andress, can you provide us the 
assurance that this RFP will create a platform that will meet 
those threshold objectives?
    Mr. Andress. Absolutely, yes, sir.
    Mr. Forbes. What about the objective requirements?
    Mr. Andress. Yes, sir. I think your question is, will the 
RFP address threshold requirements, and will it enable a path 
to objective requirements. Is that your question?
    Mr. Forbes. No. Will it meet the objective requirements?
    Mr. Andress. This RFP is not designed to meet the objective 
requirements. It is not a part of our acquisition strategy, not 
when you balance it against cost, schedule, and technical risk 
of carrier suitability.
    Mr. Forbes. Now, let me just ask you a couple final 
questions. Is the Navy abandoning the precision landing system 
developed and successfully tested during the UCAS-D effort for 
the UCLASS program?
    Admiral Grosklags. Sir, our long-term plan is to utilize 
the Joint Precision Approach and Landing System [JPALS], which 
is a separate Navy-run, Navy-managed program of record. A 
couple of advantages in doing that: The first is the UCAS-D 
precision landing system is a very proprietary system that was 
designed specifically for this demo program. It would require 
significant modifications to enable it to operate long term in 
the carrier environment operationally.
    Alternatively, with JPALS, what we get is a solution that 
we are not only going to use for UCLASS but also for the Joint 
Strike Fighter. A Joint Strike Fighter also requires a 
precision landing system, and JPALS fits that need for both the 
F-35Cs on board the aircraft carrier and the F-35Bs for the 
Marine Corps on board our large-deck amphibs [amphibious 
assault ships]. So that common program serves multiple 
platforms for the Navy.
    Mr. Forbes. Last question I will have for you. Could the 
UCLASS air vehicle described in the draft RFP operate in the 
South China Sea against the Chinese SAG [Surface Action Group]?
    Mr. Andress. Our most stressing design reference mission 
dealt with SAG capabilities, and I am happy to come by and show 
you what that exactly entails, what that threat is, where that 
threat is located.
    Mr. Forbes. And when you do, could you also talk about the 
Taiwan Strait and the Black Sea and how that would operate 
there if you don't mind?
    Mr. Andress. Yes, sir. I would be happy to do that.
    Mr. Forbes. Mr. Courtney, did you have any follow-up 
questions?
    Mr. Courtney. Just a quick follow-up.
    Mr. Andress, you mentioned again sort of some of the, I 
don't know what the word is, constraints or just realities that 
you have to kind of deal with in this whole process, and you 
talked about technical risk being one of them. Again, the prior 
panel, we had a little colloquy regarding the issue of 
refueling. If you were going to lower the fuel amounts on 
board, that obviously that would create an immediate 
requirement to have tankers be able to do this. Again, that is 
one of those technical, I don't know if the word is ``risk,'' 
but challenges. I mean, tankers aren't really doing that right 
now in terms of refueling unmanned systems. Isn't that correct?
    Mr. Andress. Not to my knowledge, no, sir.
    Mr. Courtney. So, again, when people sort of talk about 
well, let's lower the fuel capacity and that way we can add 
more strike capability, and if you are going to do deep 
strikes, it almost makes refueling, you know, mandatory. I 
mean, that is a whole another set of challenges that you have 
to deal with. Right? If you were trying to jump to that system 
right away.
    Mr. Andress. Yes, sir. It would be if we were trying to 
jump. We would not necessarily--remember the sea base is always 
mobile, and it is able to gain accesses that land bases do not 
always give us the luxury to enjoy. So when we talk about a 
threshold capability of 2,000 miles for a single-strike 
mission, that is a significant strike unrefueled. So no fueling 
requirement, no tanking along the way. That is significant. And 
in the threshold capabilities is where you get into where that 
strike mission--I mean, the objective capabilities that you run 
against those missions get into how much more difficult that 
strike mission would be. But at threshold on objective, we will 
have unrefueled tanking to support a 2,000 nautical mile 
strike.
    Mr. Courtney. Right, pretty good range.
    Did you want to comment, General?
    General Guastella. Sir, if I could, an absolutely valid 
question.
    The JROC's approach is--if you look at it as a strike 
asset, it falls into a family of strike assets. And so, if 
there is very long-range targets, maybe that would be something 
more suited to different assets.
    And so what we will do is tailor targets that are 
associated to the UCLASS's capability range to it and then 
assess other targets to different platforms.
    And together, though, as a family of systems, it is how we 
feel we are best presenting a joint force for our country.
    Mr. Courtney. I yield back.
    Mr. Forbes. Well, General, in that regard, too, we have a 
family of systems for ISR as well and a lot of other 
capabilities that we are using for that.
    And what we are looking at here is the Navy capability from 
a carrier platform because the big concern we have is the A2/AD 
defense is pushing our carriers out further and further.
    So if we weren't worried about the Navy doing that, we 
could rely on our bombers or whatever might be involved in that 
family of assets.
    Mr. Andress, just one last thing I want you to clarify 
again. And I think you have done this, but I want to make sure.
    You said that cost was a huge driver in the analysis of 
alternatives. What alternatives did we take off the table 
because of cost?
    Mr. Andress. Sir, I spoke to the analysis of alternatives 
of different endurance ranges, from 8, 14, to 24. We took 24 
off the table as we did the analysis both on mission cost and 
technical risk.
    We then took off--as we went from the AOA, we saw that 
those two were still viable. Then you started to look at--from 
cost, it became the 8-hour mission as compared to mission 
effectiveness, and we went with the 13.6 hours.
    Mr. Forbes. So you didn't take off additional payload or 
anything like that based on your cost analysis?
    Mr. Andress. Could I take that for the record to make sure?
    Mr. Forbes. Sure. If you could just bring that over when 
we----
    Mr. Andress. It is a complicated mix of tradeoff analysis. 
I want to make sure I get you the right answer.
    Mr. Forbes. And we can talk about that when we get into the 
classified setting.
    Mr. Andress. Absolutely.
    Admiral Grosklags. Sir----
    Mr. Forbes. Oh, please. Please.
    Admiral Grosklags [continuing]. On that question, two other 
things that were taken off the table because they were looked 
at as part of that analysis of alternatives--and I believe they 
were mentioned earlier--was the Fire Scout--that was looked at 
as a potential solution for this mission requirement of ISR&T 
from the carrier--as was Triton.
    And those were taken off for obviously different reasons, 
but the determination was neither one of them could meet this 
requirement for something that supported the carrier, wherever 
it happened to be around the world, real-time.
    Mr. Forbes. Good.
    I had promised all three of you that I would give you any 
time you needed for a wrap-up. And so I want to offer you that 
now.
    And maybe, Admiral, if we could start with you and----
    Admiral Grosklags. All right, sir. First, I want to clarify 
something that was mentioned today just so we are crystal-
clear.
    You had asked a question about 14 hours and, if we add 
additional ordnance or mission systems to the aircraft, was 
that 14 hours still achievable.
    I think the answer to that is it depends. We will find out 
from our vendors once we get the actual proposals back 
whether--as we add additional weight to the aircraft, typically 
that will reduce their endurance capability. We will find out 
whether, with additional payload, they can still meet 14 hours.
    But the specific requirement for the day-one capability--
and, again, this is the near-term day-one capability--is 14 
hours unrefueled with a single laser JDAM [Joint Direct Attack 
Munition]. That is the basic requirement to get out there, 
perform the ISR&T mission with a precision strike capability.
    We acknowledge in this specification, as they bring more 
weapons to the table, just like any other aircraft, be that 
manned or unmanned, that the endurance, the range, the 
performance of the air vehicle will decline over time.
    Mr. Forbes. But, Admiral, help me with that, then, because 
I--you know, I just want to make that clear. And thank you for 
clarifying that.
    Because I thought it was your statement--not yours, but 
maybe Mr. Andress'--that you could add that additional payload 
and continue to have that 14 hours.
    And you are not saying you couldn't do it. What you are 
saying is you will have to check to see if you could do it. Is 
that a fair statement?
    Admiral Grosklags. Yes, sir. I just wanted to make sure you 
were clear on that.
    Mr. Forbes. No, because that does help me.
    Because if, in fact, the previous panel was correct in 
saying that they didn't believe you could do that and if, in 
fact, when you come back, your conclusion is we could not 
increase that 1,000-pound payload and continue with the 14 
hours, then it becomes very important for us to ask what are we 
taking off the table by not being able to use more than 1,000 
pounds of payload.
    And if I could just ask one more thing. I am going to let 
you respond all you want.
    Because the previous panel would suggest that there are a 
lot of those targets that Mr. Andress was talking about that 
you cannot handle with 1,000 pounds of payload.
    So now please clarify for me to make sure I am not missing 
any of those points.
    Admiral Grosklags. No, sir. You are accurate.
    And as the mission roles of this aircraft develop over 
time, what we are trying to ensure is the operational 
commander, whether that be the carrier strike group commander 
or a COCOM or a joint force commander in the area of 
operations, has the flexibility to make that decision: Do I 
want this 14-hour aircraft with a precision strike capability, 
albeit somewhat limited, or am I willing to give up a little 
bit of that endurance for a particular mission where I want to 
carry more ordnance or I want to carry a different sensor 
package or I might want to take additional fuel on my external 
hard points?
    Those decisions, long term, we want to leave to the 
operational commanders. So we are trying to build an air 
vehicle that is adaptable to that situation.
    I mean, I heard some earlier comments about an 8- to 10-
hour aircraft that could carry 4,000 pounds and could not be 
seen by anybody. And, frankly, that doesn't exist. It does not 
exist, and it is not technically achievable today.
    We have looked at the tradeoffs very, very carefully 
between all the mission roles, all the mission capability, 
weapons, low observability, endurance, cost, manpower to 
sustain: How does it fit on the carrier? How does it blend in 
with the rest of the carrier strike group? How does it blend in 
with the joint forces, as the general mentioned? And the 14 
hours for that particular mission set at EOC [early operational 
capability] was really the sweet spot. We melded all those 
things together.
    Mr. Forbes. And, Admiral, as you come back to us--and I 
don't expect you to have the answers today--it is night and day 
difference between what you said and what I maybe misunderstood 
from Mr. Andress, in that, if we are, in fact, saying that, if 
we lock into a requirement of 14 hours, we don't know for sure 
if we can increase this 1,000-pound payload--I am just--I am 
sorry. Go ahead.
    Admiral Grosklags. Yeah. I just want to be clear.
    When we write requirements for any aircraft or, frankly, 
any system, we will have a baseline requirement that we can 
test them to. Okay?
    So the baseline requirement for the fielding of this 
aircraft is to be able to comply with that 14-hour endurance 
requirement, the orbits that Mr. Andress talked about with a 
defined payload.
    If we or the operational commander in the future chooses to 
change that mission payload, then we don't hold industry to 
provide us an aircraft that continues to meet all the other 
parameters that are encompassed in that baseline capability. We 
have to have something to measure them against initially, and 
that is what that 14 hours is.
    Mr. Forbes. And I understand that, and I appreciate that.
    I guess what I am trying to also say is that what the 
previous panel, I thought, was indicating to us is it might be 
more important for you to be able to have that increased 
payload as opposed to that endurance if, in fact, your goal is 
penetrating those A2/AD defenses.
    And one of the things they would at least suggest is that 
you can't just come back and modify this platform quite as easy 
as it is being represented to be able to do.
    In other words, it is not some modular thing that a 
commander in the field just says, ``Okay. Today I would rather 
have 8 hours.'' You see what I am saying?
    Admiral Grosklags. Yes, sir. It is not that simple.
    We know that when--based on the design solutions we have 
seen to date, we know that industry will be able to bring us 
something that has a greater weapons payload than what is in 
that initial requirement.
    We also know and have been clear with the industry that, if 
they bring us that additional weapons payload, in that 
operational context, they will not be required to meet the 14-
hour endurance requirement.
    Mr. Forbes. And, if I could--again, I appreciate your 
clarification--that is the essence of what we have been saying.
    If we lock into a requirement on this 14-hour provision 
because of affordability, because of whatever we are looking 
at, we just want to make certain that we are not going down a 
route that is going to take other options off the table which 
could be incredibly important, if, in fact, you view this 
UCLASS as important not just for ISR, but for penetrating an 
A2/AD defense.
    And if you also say, for it to do that successfully, it has 
got to carry more than a 1,000-pound payload, then we are 
starting off in the wrong place at the beginning. And that is 
just what our concern is, and maybe that is a discussion we 
have to have in a classified session.
    Admiral Grosklags. I think part of it would be easier in a 
classified setting.
    However, as we discussed earlier, we have seen through the 
preliminary design reviews that industry has design solutions 
that cannot only enable us to grow to a more mission-effective 
capability in terms of low observability without major 
modifications to the airframe that we are going to see on day 
one, we also have seen the capability to carry additional 
weapons in those same designs.
    So, again, the 14-hour requirement is for that early 
operational capability single mission. That does not constrain 
us specifically from adding additional weapons capability to 
the aircraft. And, in fact, we have seen designs that carry 
considerably more than that 1,000 pounds. But we will not hold 
the providers of that to 14 hours with those additional 
weapons.
    So, again, it gives us the flexibility in the future to 
decide, ``Yes. We want to carry more weapons on a particular 
mission.'' We have to go through, you know, the process for 
certification for those weapons. So it will take a little bit 
of time, not day one. But it gives us that flexibility in the 
future to go there.
    Mr. Forbes. Okay. And thank you, Admiral.
    Mr. Andress.
    Mr. Andress. Yeah. I just wanted to build on that, and 
maybe I can offer some clarity.
    Our threshold requirements for the 1,000 pounds and 14 
hours and that has to be tested against, it doesn't change as 
we go from threshold to objective requirements. The 
requirements remain 14 hours endurance. The requirement for 
weapons grows beyond--it goes to greater than 1,000 pounds.
    I think what Admiral Grosklags was pointing out that hasn't 
really been highlighted is, even at threshold requirements, 
this thing is going to have 1,000 pounds internal carriage and 
two hard points with 3,000 pounds.
    So if the commander makes the decision to strap 3,000 
pounds of weapons on the outside and the 1,000 pounds of 
internal carriage, you wouldn't expect it to still test to the 
14-hour requirement. Does that make sense?
    Mr. Forbes. Yes, sir. It does.
    Mr. Andress. I just wanted to make sure that was very 
clear.
    Mr. Forbes. It does.
    Mr. Andress. And I think it will be very helpful for you 
when we show you the specific design reference missions at 
threshold and at objective that we need to achieve.
    Mr. Forbes. I think it would. Thank you, Mr. Andress.
    General, any?
    General Guastella. Sir, I appreciate the opportunity to 
testify today and realize it is an unclassified forum and it is 
difficult to present some of the analysis that JROC uses and 
how the UCLASS fits into that joint portfolio, but happy to 
come back if you have additional questions, sir.
    Mr. Forbes. Good.
    Well, gentlemen, thank you so much for your patience and 
for being here to help us. We thank you for your service to our 
country. And we look forward to getting together again in that 
classified session to be able to talk further about it.
    And, with that, Mr. Courtney, if you don't have anything 
else, then we are adjourned.
    [Whereupon, at 5:45 p.m., the subcommittee was adjourned.]


      
=======================================================================


                            A P P E N D I X

                             July 16, 2014

=======================================================================

      


      
=======================================================================


              PREPARED STATEMENTS SUBMITTED FOR THE RECORD

                             July 16, 2014

=======================================================================

      
      
    [GRAPHIC] [TIFF OMITTED] 
      
=======================================================================


              QUESTIONS SUBMITTED BY MEMBERS POST HEARING

                             July 16, 2014

=======================================================================

      
                   QUESTIONS SUBMITTED BY MR. HUNTER

    Mr. Hunter. How does this platform fit into current or anticipated 
operational plans? Specifically, which mission is it most important 
that this platform be capable of performing? Are we seeking UCLASS to 
be a naval force multiplier or focused for deep strike?
    Admiral Grosklags. Persistent sea-based Intelligence, Surveillance, 
Reconnaissance, and Targeting (ISR&T) with precision strike is the most 
critical gap that UCLASS will fill. This was reinforced in a combined 
USAFRICOM, USCENTCOM and USSOCOM Joint Emergent Operational Need 
(JEON), in which UCLASS was deemed a suitable solution. UCLASS will 
fully integrate with the Carrier Air Wing to support a myriad of 
missions from permissive counter-terrorism operations to missions in 
low-end contested environments, to providing enabling capabilities for 
high-end denied operations, as well as supporting organic naval 
missions. The UCLASS initial Concept of Operations (CONOPS) includes 
long dwell surveillance and targeting for extended range weapons, and 
precision strike against time sensitive targets.
    Mr. Hunter. What sort of ordnance do you see a strike oriented 
solution carrying? What types of targets do you envision it striking? 
Are these missions already within the F/A-18 or F-35C capability? How 
would a strike oriented UCLASS compliment or overlap with capabilities 
offered by those platforms?
    Admiral Grosklags. Given the projected speed of UCLASS and most 
probable target sets, the weapons most valued by fleet requirements are 
the 500-pound class Laser Joint Direct Attack Munitions (JDAM) and the 
upgraded Small Diameter Bomb (SDB II). The internal weapons capacity 
requirement of greater than 1000 pounds of ordnance at threshold was 
determined to address specific classified scenarios and compliments the 
Carrier Air Wing capability. An objective growth criteria for 2,000 
pounds of LJDAMs and/or SDBIIs is also specified. Additionally, the 
UCLASS Air Vehicle will have a minimum of two external hard-points each 
provisioned to carry 3,000 pounds, suitable for most weapons currently 
employed by the Carrier Air Wing.
    Mr. Hunter. Do UCLASS budget estimates provided to Congress this 
year envision a low-cost, affordable acquisition strategy or do they 
envision development of a presumably more expensive, highly stealthy 
platform?
    Admiral Grosklags. The UCLASS budget profile, as outlined in the 
President's Budget for FY 2015, provides adequate funding to achieve 
the Early Operational Capability with growth capabilities outlined in 
the current acquisition strategy. Affordability is a key component of 
the UCLASS acquisition strategy.
    Mr. Hunter. What is your specific endurance requirement for UCLASS? 
Can you have it all--long endurance and high stealth--or is there a 
tradeoff? What considerations need to be weighed between a 14 hour 
endurance solution with little or no strike capability and a 10 hour 
endurance solution with significant strike capability?
    Admiral Grosklags. The endurance requirement, as part of the 
Persistence Key Performance Parameter, is to provide two unrefueled 
orbits (24/7 coverage) at a radius of 600 nm from the aircraft carrier, 
or one unrefueled orbit at 1200 nm per UCLASS system, or for each air 
vehicle to fly an unrefueled maximum range profile (out and back) to 
2000 nm to perform strike missions.
    The designs of aircraft which can meet the UCLASS requirements are 
driven by unrefueled endurance/range; senor payload weight/volume; 
weapons payload; low-observable characteristics; in-flight refueling 
provisions for both fuel give and receive; and, as important as any of 
the preceding, the constraints of operating from an aircraft carrier 
including consideration of such things as structural loads for launch/
recovery, landing area (width), and deck spotting factor. Even with all 
of the above design constraints, through two years of close engagement 
with industry, the DoN is very confident that affordable UCLASS 
aircraft with 14 hours of unrefueled endurance and a high degree of low 
observability are possible and will be proposed by industry in response 
to our forthcoming request for proposals.
    A 14 hour endurance UCLASS will be able to carry 1000 to 2000 
pounds of internal weapons. One thousand pounds is the minimum 
requirement and the potential to attain 2000 pounds at EOC will be 
determined by specific vender proposals. This payload is sufficient to 
meet mission requirements as defined in the UCLASS Design Reference 
Missions. In addition the UCLASS will have a minimum of two 3000 pound 
external hard-points capable of handling the majority of weapons in the 
current CVW inventory.
                                 ______
                                 
                  QUESTIONS SUBMITTED BY MR. LANGEVIN
    Mr. Langevin. Looking at the vast array of ISR assets available to 
a carrier strike group commander--space, airborne both from land and 
sea, and undersea--what would be the ``secret sauce'' that an ISR-
centric, 14-hour UCLASS would bring that an 8-10 hour UCLASS could not?
    Mr. O'Rourke. In preparation for the hearing, I received briefings 
on the UCLASS program from the Navy and from each of the four firms 
that are currently competing for the program. The Navy stated that its 
analysis of alternatives (AOA) for the UCLASS program concluded that an 
8-hour UCLASS would have effectiveness comparable to a 14-hour UCLASS 
in three of the four tactical situations that were examined in the AOA, 
and somewhat less effectiveness than a 14-hour UCLASS in one of the 
four tactical situations. The Navy stated that the AOA concluded that 
an 8-hour UCLASS would have a higher life-cycle cost than a 14-hour 
UCLASS. Life-cycle cost, the Navy stated, included development, 
production, and operation and support (O&S) costs. Based on the 
briefings I received from industry, my sense is that some in industry 
might agree (or at least not disagree) with these findings, while 
others might disagree or argue that the AOA did not examine the right 
set of tactical situations. In my prepared statement for the hearing, I 
stated that:
    The specific tactical situations that were examined in the UCLASS 
AOA are related to the program's current operational requirements. 
Assessing alternative operational requirements for the UCLASS program 
could involve examining potential outcomes in other tactical situations 
that may not have been considered in the AOA. A broader analysis might 
examine how changes in UCLASS operational requirements might affect 
estimated outcomes in campaign-level, force-on-force situations, rather 
than in specific tactical situations. (Statement of Ronald O'Rourke, 
Specialist in Naval Affairs, Congressional Research Service, Before the 
House Armed Services Committee, Subcommittee on Seapower and Projection 
Forces, on Unmanned Carrier-Launched Airborne Surveillance and Strike 
(UCLASS) Requirements Assessment, July 16, 2014, pp. 5-6.)
    Mr. Langevin. Looking at the vast array of ISR assets available to 
a carrier strike group commander--space, airborne both from land and 
sea, and undersea--what would be the ``secret sauce'' that an ISR-
centric, 14-hour UCLASS would bring that an 8-10 hour UCLASS could not?
    Mr. Martinage. The short answer is that there is no ``secret 
sauce'' that a 14-hour UCLASS would bring that an 8-10 hour UCLASS with 
significantly enhanced survivability and strike capacity could not. The 
Navy's rationale for 14 hours of unrefueled endurance centers on its 
stated requirement for 24-hour intelligence, surveillance and 
reconnaissance (ISR) support of--or ``maritime domain awareness'' 
around--the carrier strike group (CSG). Putting aside survivability and 
strike capacity issues and looking narrowly at just the MDA mission 
(which, I would argue, is the central problem with UCLASS 
requirements), the only ``advantage'' conferred by 14 hours of 
unrefueled endurance is the ability to bridge the closed or 
``overnight'' period of the canonical 12 hour ``deck day'' without 
land-based airborne tanker support.
    If the deck day were extended by three to four hours, or if 
aircraft were arranged on the flight deck at the close of normal air 
operations to support one or two overnight recoveries, then this so-
called advantage vanishes. Of course, if land-based aerial refueling is 
available, which is axiomatically true during joint combat operations, 
the 8-10 hour air vehicle could be ``tanked'' during the night rather 
than recover to the carrier. It is essential to note that if the 
carrier is supporting power projection operations in anti-access 
environments anticipated in the 2020s, which is when UCLASS would 
field, it would likely be standing off some 1,000-1,500 nautical miles 
(or more) from an adversary's coast. In which case, the only practical 
way to sustain persistent ISR-strike operations would be to refuel 
UCLASS inflight from Air Force tankers operating several hundred miles 
closer to the battlespace, just outside the range of adversary air 
interceptors and surface-to-air missiles. A non-refuelable UCLASS, even 
one with 14 hours unrefueled endurance, would offer marginal utility in 
such scenarios.
    Equally important to note is that the Navy already has two other 
UAS programs of record underway that will yield overlapping, multi-
tiered (strategic- and tactical-level) persistent MDA in support of CSG 
operations. Indeed, the MQ-4C Triton, a marinized version of the Air 
Force's RQ-4 Global Hawk strategic surveillance UAS with over 30 hours 
unrefueled endurance, was designed expressly for the ``broad area 
maritime surveillance'' mission (hence, its previous ``BAMS'' moniker). 
And while the Navy is currently planning to acquire some 68 Tritons, it 
would take just three of these aircraft (two operational, one spare) to 
sustain 24-hour MDA in support of a CSG. Triton is complemented in the 
MDA domain by the MQ-8C Fire Scout, an unmanned helicopter with over 12 
hours unrefueled endurance capable of operating from any air-capable 
surface combatant (e.g., carriers, destroyers, cruisers, littoral 
combat ships). Together, Triton and Fire Scout will arguably generate a 
surfeit of MDA capacity over the near-term. Thus, it makes little sense 
for the MDA mission--much less the readily dispelled notion of an MDA 
``capability gap''--to drive UCLASS requirements.
    The more important issue this question raises is the opportunity 
cost of that 14-hour endurance in terms of reduced payload capacity and 
flexibility, survivability, and growth potential. The cost of 14 hours 
of unrefueled endurance is most likely about 1,000-3,000 lbs of weapons 
(or other mission payloads), the inability to carry stand-off weapons 
both currently in the inventory and in development, and a significant 
increase in presented radar cross section at relevant threat 
frequencies.
    Mr. Langevin. Looking at the vast array of ISR assets available to 
a carrier strike group commander--space, airborne both from land and 
sea, and undersea--what would be the ``secret sauce'' that an ISR-
centric, 14-hour UCLASS would bring that an 8-10 hour UCLASS could not?
    Mr. Brimley. The short answer is, no secret sauce would be provided 
from an ISR-centric, 14-hour UCLASS. As discussed during the hearing, 
the types of permanent design decisions that would be required to field 
a 14-hour UCLASS would preclude the kind of payload and limited stealth 
that would be required to provide a meaningful increase to the striking 
power of the carrier air wing. As I described during the hearing, I am 
not a former naval officer and I am not an aircraft design expert--when 
I engage in a requirements discussion my perspective is that of a 
civilian defense strategist. That is to say, I concern myself with 
several threshold questions, including:
    1. Will the platform provide a future Commander-in-Chief better 
military options during a crisis? 2. Will it help address pressing gaps 
in U.S. defense strategy and planning? 3. Does it enable forward U.S. 
forces to present a stronger conventional deterrent and, if necessary, 
help ensure U.S. forces can defeat a plausible adversary? 4. Will the 
program help underwrite the confidence of our allies and partners? 5. 
Does it reflect measured judgments regarding mid- to long-term 
requirements for U.S. defense? 6. And finally, does the program help 
ensure America's military-technical dominance in an increasingly 
competitive environment?
    I don't think a very limited system designed to provide ISR to the 
carrier meaningfully addresses any of the above questions. Far and away 
the most pressing challenge facing the U.S. Navy is finding ways to 
project and sustain combat power in the face of adversary ballistic and 
cruise missile technology that could hold at risk our aircraft carriers 
well beyond the unrefueled range of their strike aircraft. The original 
requirements for an unmanned combat aerial vehicle (UCAV) date back to 
the 2006 Quadrennial Defense Review. I believe the original conception 
of harnessing the unmanned revolution to provide an asymmetric and 
disruptive capability that would ensure the combat relevance of the 
carrier air wing to a plausible high-end challenge were correct. We 
need a system that has broadband, all-aspect stealth, is capable of 
automated aerial refueling, with an integrated surveillance and strike 
capability. My argument is that these original requirements were 
largely correct, and the recent deviations from this to a more limited 
ISR role reportedly described in the draft UCLASS RFP are not wise 
given the projected security environment.
    Finally, as we talked about during the hearing, it is not as if 
several of my colleagues and I were arguing for a capability that is 
well outside the realm of the possible. We all observed the multiple 
recent successful tests of the Navy's X-47B, a stealthy flying wing 
design that will likely succeed in air-to-air refueling tests as well. 
I am confident that we can build and field the kind of system that the 
Navy will need to give a future Commander-in-Chief real deterrent and 
carrier-based strike options that I believe he or she will need in the 
years ahead.
    Mr. Langevin. Looking at the vast array of ISR assets available to 
a carrier strike group commander--space, airborne both from land and 
sea, and undersea--what would be the ``secret sauce'' that an ISR-
centric, 14-hour UCLASS would bring that an 8-10 hour UCLASS could not?
    Mr. McGrath. Thank you, Representative Langevin, for your 
continuing interest in this matter and for this excellent question.
    You correctly list a number of ISR sensors to which a Strike Group 
Commander has access. The array is considerable, and in some respects, 
overlapping. To the extent that there is any ``secret sauce'' 
available, it all revolves around the question of ``who controls the 
asset?'' If the CSG Commander had a 14 hour ISR privileged UCLASS at 
his disposal and UNDER HIS COMMAND, it gives him additional operational 
flexibility versus assets ``owned and operated'' by some other 
commander. Under current Command and Control (C2) schemes, the CSG 
Commander must request assets from others to fill this mission, and 
this is something no commander enjoys. Having instant and untrammeled 
control of a capability is always better than ``access'' to someone 
else's asset.
    This said, the CSG Commander relies on others to provide him with a 
lot of capabilities. He does not own the P-8's or MQ-4's that provide 
him with support. He does not own satellite assets that give him 
support. He often relies on inorganic tanking from USAF refueling 
assets. The point is, the aircraft carrier deck is already a crowded 
place, so taking up valuable real estate simply to provide the CSG 
Commander with an asset solely under his control--the opportunity cost 
of which is moving more slowly and ineffectively to combat capability 
in a contested environment--seems imprudent when there are a plethora 
of other ways to get the desired information to the Strike Group.
    Mr. Langevin. Why is air-to-air refueling not a threshold 
requirement? What effect would having the ability to refuel have on the 
requirement--for instance, would the endurance requirement come down in 
a CONOPS where a UCLASS platform was able to refuel after takeoff, like 
current manned missions?
    Admiral Grosklags. The UCLASS Air Vehicle will be required to be 
provisioned for aerial refueling at threshold. All vendors are required 
to meet the requirements set forth in the Persistence KPP which call 
for two 600 nm 24/7 orbits or one 1200 nm 24/7 orbit or one 2000nm 
strike; all of which must be conducted unrefueled. Due to the 
compressed test and evaluation period and requirements outlined in the 
affordability Key Performance Parameter, aerial refueling, which 
includes both giving and receiving fuel, would not be achievable by the 
2020 Early Operational Capability (EOC) deployment and will be 
implemented in the future based on Fleet requirements/demand. Complete 
implementation of aerial refueling at threshold would not affect 
current threshold endurance requirements. Additionally, including air-
to-air refueling at threshold would add technical difficulty and cost 
to the development process making the program unaffordable. The tanker 
fleet would also require additional development and test, adding cost 
and time to the program.
    Mr. Langevin. I'm sure each of you are aware of the public reports 
of several nations developing advanced radar systems and radar networks 
specifically designed to defeat low-observable platforms. Given the 
pace of development and the proliferation of air defense radar systems 
in the past, how confident are you that the levels of low-observability 
across key frequencies that the Navy is planning to require would be 
sufficient for UCLASS to conduct the full range of envisioned missions 
through the life of the platform?
    Admiral Grosklags. When developing the Air Vehicle survivability 
specifications, a broad range of current and future threat systems were 
evaluated. This assessment looked at a full range of scenarios 
including shore based and maritime A2AD threats. The Early Operational 
Requirement threshold capabilities, future growth, requirements, and 
objective criteria were based on this assessment and the Concept of 
Operations which utilizes UCLASS as part of a fully integrated Carrier 
Air Wing/Carrier Strike Group.
    Mr. Langevin. Can you give us an example of a mission that a 14-
hour endurance UCLASS could accomplish that a 8-10 hour vehicle or 
other assets, whether sea, air, or space, could not?
    General Guastella. Persistence is a key attribute for the Unmanned 
Carrier Launched Airborne Surveillance and Strike (UCLASS) system. 
Based on extensive endurance and aerial refueling analyses, a 14-hour 
vehicle is the most cost effective approach to meet operational 
requirements. UCLASS must integrate into the standard carrier (CVN) 
flight cycle, and while an air vehicle with 8-10 hour endurance may 
have the same surveillance and strike capabilities, the shorter 
endurance will require costly aerial refueling to integrate into CVN 
operations. Avoiding the reliance on aerial refueling provides a cost 
advantage and reduced operational risk. A 14-hour unrefueled endurance 
allows 24-hour coverage within a standard fly day and the greater 
persistence and range translate to greater operational flexibility for 
the Carrier Strike Group and operational commanders.
    Mr. Langevin. Why was 1,000 pounds chosen as a threshold strike 
capability? What does that translate to as far as weapons capabilities, 
including standoff weapons? How does the weight relate to volume 
requirements? And what requirement is this strike capability designed 
to address?
    General Guastella. The Unmanned Carrier Launched Airborne 
Surveillance and Strike (UCLASS) Analysis of Alternatives (AOA) 
examined several performance recommendations that drove the development 
of the Key Performance Parameters (KPPs) outlined in the draft 
Capabilities Development Document (CDD). The internal weapons capacity 
of > 1000 pounds at threshold was determined by several factors 
including endurance, survivability, carrier integration and, most 
importantly, targets serviced. Based on this analysis, UCLASS' 
precision strike capability will be designed to address specific 
classified scenarios for both today's missions and future threats. In 
these scenarios, the 500-pound class Laser Joint Direct Attack 
Munitions (LJDAM) and the upgraded Small Diameter Bomb (SDB II) are the 
weapons of choice. Each of these weapons enhance ``maneuverability'' 
when employed against a moving target like a ship or vehicle, and SDBII 
provides a significant standoff capability. The threshold requirement 
of 1000 lbs internal, with objective growth approaching 2000 lbs allows 
for 2-4 LJDAM or 4-8 SDBIIs. This number of weapons provides sufficient 
precision strike capability to service the target sets outlined in the 
AOA. Additionally, the UCLASS air vehicle is planned to have at least 
two external hard-points, provisioned for additional 3000 lbs of 
carriage each, to carry a majority of the weapons currently employed by 
the Carrier Air Wing.
    Mr. Langevin. I'm sure each of you are aware of the public reports 
of several nations developing advanced radar systems and radar networks 
specifically designed to defeat low-observable platforms. Given the 
pace of development and the proliferation of air defense radar systems 
in the past, how confident are you that the levels of low-observability 
across key frequencies that the Navy is planning to require would be 
sufficient for UCLASS to conduct the full range of envisioned missions 
through the life of the platform?
    General Guastella. We are confident that the Joint Requirements 
Oversight Council (JROC) survivability requirements for the Unmanned 
Carrier Launched Airborne Surveillance and Strike (UCLASS) program are 
sufficient. The Joint unmanned aerial system portfolio includes systems 
with various levels of performance, survivability, basing options and 
missions. The UCLASS will play a key role in providing carrier-based, 
persistent intelligence, surveillance, reconnaissance, and precision 
strike capability within this portfolio.
                                 ______
                                 
                   QUESTIONS SUBMITTED BY MR. LARSEN
    Mr. Larsen. To what degree have you reviewed the Navy's UCLASS 
draft RFP and classified addenda? Are there aspects of the Navy defined 
survivability requirement or other requirements you find insufficient 
and why?
    Mr. Martinage. I reviewed earlier drafts of these materials while 
serving in the Department of the Navy. Questions about survivability 
cannot be adequately addressed at the unclassified level.
    Mr. Larsen. Since the Navy and OSD/Joint Staff vetted the UCLASS 
requirements, has additional information come to light to warrant a 
change to those requirements at this stage of the acquisition process?
    Mr. Martinage. Countering emerging anti-access/area-denial (A2/AD) 
challenges was OSD's original motivation for both starting Navy UCAS/
UCAS-D in the 2006 Quadrennial Defense Review (QDR), and for providing 
the additional $2 billion in the FY11 Program and Budget Review. The 
need for a longer range, survivable, carrier-based air vehicle for ISR 
and strike in contested airspace was articulated throughout the 2010 
QDR and affirmed in testimony to Congress on several occasions by 
senior Navy official in 2010 and 2011.
    The current key performance parameters (KPPs) emerged from a highly 
contentious--and still unsettled--debate with DOD over the past two 
years. Among the competing schools of thought are those who seek a 
lower-end, carrier-based UAS optimized for counter-terrorism missions 
as a hedge against the potential loss of land-bases for armed UAVs such 
as the MQ-1 Predator and MQ-9 Reaper; those that believe a capability-
gap exists with respect to maritime domain awareness (MDA) around the 
carrier strike group (CSG); those that are willing to dilute UCLASS 
requirements to reduce bureaucratic and cultural resistance within the 
naval aviation community to ``get something'' onto the carrier deck; 
and those, like myself, that fervently believe that a stealthy, air-
refuelable ISR-strike UAS is needed to maintain the operational 
relevance of the carrier air wing in the face of emerging A2/AD 
threats. The latter would offer ``pan-conflict spectrum utility,'' 
meaning that it would be equally capable of the counter-terrorism, MDA, 
and counter-A2/AD power projection missions.
    What has changed since this debate was first joined is a growing 
awareness within DOD and the national security community of the 
probable scale, scope, and pace of the unfolding A2/AD challenge. 
Meanwhile, the feared loss of land bases to support counter-terrorism 
operations in the Middle East, Central Asia, and Africa has not 
materialized and there are no signs that it will. While it is difficult 
to say whether counter-terrorism will be as prominent in the mid-2020s 
when UCLASS is scheduled to field as today, current trends suggest that 
the U.S. military will retain a wide range of options for basing long-
range UAVs such as the extended-range MQ-9 Reaper and RQ-4 Global Hawk. 
In contrast, threats to the aircraft carrier and its embarked aircraft 
are clearly intensifying.
    Although several countries around the world are fielding A2/AD 
capabilities, the pacing threat is China. In its most recent Annual 
Report to Congress on Military and Security Developments involving the 
People's Republic of China, DOD highlights myriad threats to the 
aircraft carrier including air-, sea-, and submarine-launched anti-ship 
cruise missiles; wake-homing torpedoes from a growing and increasingly 
capable submarine fleet; and long-range, anti-ship ballistic missiles 
(ASBMs). It states:
          China is fielding a limited but growing number of 
        conventionally armed, medium-range ballistic missiles, 
        including the DF-21D anti-ship ballistic missile (ASBM). The 
        DF-21D is based on a variant of the DF-21 (CSS-5) medium-range 
        ballistic missile (MRBM) and gives the PLA the capability to 
        attack large ships, including aircraft carriers, in the western 
        Pacific Ocean. The DF-21D has a range exceeding 1,500 km and is 
        armed with a maneuverable warhead. (pp. 5-6.)
    In addition to the carrier being potentially pushed well outside 
the unrefueled combat radius of its embarked fighters, the F-18E/F and 
F-35C will also confront increasingly deadly land- and sea-based 
integrated air defenses (IADS). Not only are modern IADS diffusing 
widely around the globe, they are also growing more lethal owing to 
several synergistic trends: more sensitive radars operating over wider 
frequency bands, increased resistance to electronic attack (e.g., 
jamming and spoofing), increased interceptor range, more advanced 
signal processing, and high-speed networking. Variants of the Russian-
made S-300 (SA-10/20), for example, are already in service in about a 
dozen countries, including Algeria, Armenia, Azerbaijan, Belarus, 
Bulgaria, China, Slovakia, and Venezuela. Both Iran and Syria have 
repeatedly attempted to procure the S-300 from Russia. China has 
already fielded a dense, networked IADS. As the most recent Annual 
Report to Congress on Military and Security Developments involving the 
People's Republic of China states:
          China's ground-based air defense A2/AD capabilities will 
        likely be focused on countering long-range airborne strike 
        platforms with increasing numbers of advanced, long-range SAMs. 
        China's current air and air defense A2/AD components include a 
        combination of advanced long-range SAMs--its indigenous HQ-9 
        and Russian SA-10 and SA-20 PMU1/PMU2, which have the 
        advertised capability to protect against both aircraft and low-
        flying cruise missiles. China continues to pursue the 
        acquisition of the Russian extremely long-range S-400 SAM 
        system (400 km), and is also expected to continue research and 
        development to extend the range of the domestic HQ-9 SAM to 
        beyond 200km. (p. 35)
    Prospective adversaries are also investing in more capable air 
superiority fighters, outfitted with modern sensor systems and armed 
with beyond-visual-range (BVR) air-to-air missiles. These aircraft can 
be vectored--in some cases, in large numbers--to intercept U.S. 
aircraft based on rough targeting tracks developed by ground-based 
early warning radars. U.S. tanker aircraft will need to honor both the 
unrefueled radius of adversary fighters, and also the range of their 
BVR missiles, when establishing aerial refueling ``tracks'' (rendezvous 
points) for penetrating U.S. aircraft. Against a nation such as China, 
which has a growing force of air interceptors with unrefueled radii 
between 600-900 nautical miles, this would require U.S. tankers to 
stand off as much as 750-1,000 nautical miles. It is critical to note 
that this standoff distance exceeds the unrefueled radii of the F/A-
18E/F, F-22 and F-35A/B/C; and thus, would effectively preclude a 
penetrating offensive role for the entire U.S. fighter force. No fact 
more vividly underscores the need to shift emphasis within the attack 
capability area from short-range, manned fighter aircraft to 
penetrating, long-range, manned and unmanned ISR-strike systems.
    Responding to this growing appreciation of the intensifying A2/AD 
threat around the world, the Quadrennial Defense Review (QDR) stressed 
the need to improve U.S. power projection capability in contested 
environments. Consider the following excerpts from the QDR:
          In the coming years, countries such as China will continue 
        seeking to counter U.S. strengths using anti-access and area-
        denial (A2/AD) approaches and by employing other new cyber and 
        space control technologies. Additionally, these and other 
        states continue to develop sophisticated integrated air 
        defenses that can restrict access and freedom of maneuver in 
        waters and airspace beyond territorial limits. Growing numbers 
        of accurate conventional ballistic and cruise missile threats 
        represent an additional, cost-imposing challenge to U.S. and 
        partner naval forces and land installations. (pp. 6-7)
          As the Department rebalances toward greater emphasis on full-
        spectrum operations, maintaining superior power projection 
        capabilities will continue to be central to the credibility of 
        our Nation's overall security strategy. (p. 19)
          The Department's investments in combat aircraft, including 
        fighters and long-range strike, survivable persistent 
        surveillance, resilient architectures, and undersea warfare 
        will increase the Joint Force's ability to counter A2/AD 
        challenges. (p. 36)
    This recognition of the need to adapt U.S. power projection 
capabilities to address current and emerging A2/AD challenges was re-
affirmed recently in the independent review of the QDR conducted by 
National Defense Panel created by Congress. That panel, chaired by 
William Perry and John Abizaid, unanimously concluded that:
          We believe it is also critical to ensure that U.S. maritime 
        power projection capabilities are buttressed by acquiring 
        longer-range strike capability--again, manned or unmanned (but 
        preferably stealthy)--that can operate from U.S. aircraft 
        carriers or other appropriate mobile maritime platforms to 
        ensure precise, controllable, and lethal strike with greater 
        survivability against increasingly long-range and precise anti-
        ship cruise and ballistic missiles. (p. 43.)
    To conclude, the current UCLASS requirements as endorsed by the 
Joint Requirements Oversight Council (JROC) appear increasingly 
misaligned with DOD's own threat assessment and articulation of the 
Nation's overall security strategy in the QDR (as well as in the 
Defense Strategic Guidance previously approved by the President).
    As I stated in my testimony, an assessment of UCLASS requirements 
should begin with a very simple question: what is the core operational 
challenge facing carrier-based power projection? Although the Navy and 
the joint force more broadly have multiple means of providing MDA 
around the carrier strike group and to identify targets for attack by 
relatively short-range, manned fighters in low-to-medium threat 
environments, that is the focus of the JROC-approved KPPs. In my view, 
the far more pressing challenge will be projecting power effectively 
when the carrier is compelled to standoff at considerable distance 
(e.g., 1,000-1500 nm) from an adversary's coast, and then find and 
engage targets defended by modern IADS. UCLASS requirements should be 
adjusted now to address that extant and intensifying challenge.
    Mr. Larsen. To what degree have you reviewed the Navy's UCLASS 
draft RFP and classified addenda? Are there aspects of the Navy defined 
survivability requirement or other requirements you find insufficient 
and why?
    Mr. Brimley. I have not reviewed the UCLASS draft RFP or addenda, 
both of which are classified. I base my opinions on the open-source 
reporting that I have confidence in, including official statements from 
Navy officials--all of which describe requirements for an ISR-centric 
platform. As we discussed during the hearing, I believe an ISR-centric 
capability will do little or nothing to address the main challenge 
facing the carrier air wing and the carrier strike group more broadly, 
which is the need to provide persistent combat strike power over long 
ranges in the face of adversary systems designed to target our aircraft 
carriers well outside the unrefueled radii of the air wing. Addressing 
that capability gap, rather than add a redundant ISR capability, 
strikes me as a more prudent way to invest limited taxpayer resources.
    Mr. Larsen. Since the Navy and OSD/Joint Staff vetted the UCLASS 
requirements, has additional information come to light to warrant a 
change to those requirements at this stage of the acquisition process?
    Mr. Brimley. The requirement for a stealthy, refuelable unmanned 
carrier-based strike aircraft was relatively constant since the 2006 
Quadrennial Defense Review, which directed the Navy to ``develop an 
unmanned longer-range carrier-based aircraft capable of being air-
refueled to provide greater standoff capability, to expand payload and 
launch options, and to increase naval reach and persistence.'' Since 
then, both the 2010 QDR, the 2012 Defense Strategic Guidance, and the 
2014 QDR all restated the need to develop capabilities that are 
relevant to an anti-access/area-denial environment. I think it is very 
prudent to ask the Navy exactly how they took this guidance and 
produced a draft RFP that seems to deviate quite substantially from the 
strategic guidance that has been on the books for years. From what I 
can gather via open sources and official statements, there seems to be 
a view that organic ISR is the capability gap that can best be 
addressed by an unmanned system. I totally disagree with that argument. 
Given what we know about China's modernization path, its stated 
strategy to deter our forces with long-range and increasingly precise 
anti-ship ballistic and cruise missiles, and given our clear lack of 
long-range and persistent combat strike power from the aircraft 
carrier, it seems to me the role of civilian policymakers in this 
process is to ensure that taxpayer dollars are spent wisely. As several 
of my colleagues and I discussed at the hearing, we believe that 
applying the disruptive characteristics of unmanned aircraft to the 
striking power of the carrier air wing is the kind of investment path 
the Navy badly needs to walk down before it is too late.
    Mr. Larsen. What is the Navy's approach to growth in the draft RFP 
and what kind of roadmap do you envision going forward?
    Admiral Grosklags. Growth beyond threshold capability, which 
provides an affordable path to ensure system effectiveness against 
future threats, is a vital part of the UCLASS acquisition strategy. 
Specific areas of growth, identified and prioritized by Fleet input, 
include Sensor Payload Adaptability/Modularity, Weapons Capacity, Orbit 
Capacity, Mission Effectiveness (Survivability), Sustainability, and In 
Flight Refueling. While some specific growth provisions are required, 
the RFP also ensures the above growth priorities are adequately 
prioritized and incentivized, enabling the offerors to propose their 
best value solutions.
    Mr. Larsen. The first panel expressed concerns with how the Joint 
Staff, OSD, Navy and Operational Commanders determined the requirements 
for UCLASS. Please describe the detailed process and reviews that have 
led to the defined requirements in the UCLASS draft RFP including the 
organizations involved and the general timeline.
    General Guastella. The Joint Staff, Office of the Secretary of 
Defense, the Navy and Operational Commanders have been involved in 
requirements definition process for the UCLASS system since 2010. 
UCLASS has adhered to the Joint Capabilities Integration and 
Development System (JCIDS) process and has received JROC validation of 
the UCLASS Initial Capabilities Document (ICD) in June 2011 and the 
Analysis of Alternatives (AOA) in October 2012. Additionally, several 
JROC memorandums (JROCM) have been issued further refining requirements 
and priorities.
    The JROC is legislated by Title X U.S.C sec181. Voting members 
include the Vice Chairman of the Joint Chiefs of Staff (Council 
chairman) and one general or admiral from the Army, Navy, Air Force, 
and Marine Corps. Advisory members include, but are not limited to, the 
Under Secretary of Defense for Acquisition, Technology, and Logistics, 
the Under Secretary of Defense (Comptroller), the Under Secretary of 
Defense for Policy, the Director of Cost Assessment and Program 
Evaluation, and the Director of Operational Test and Evaluation.
    The following list captures the history of requirements oversight 
that has led to the currently defined UCLASS requirements.
    June 9, 2011--JROCM 087-11. Approved UCLASS ICD. Directed the AOA 
address incremental capability growth options and trades to ensure 
affordability & rapid delivery.
    August 11, 2011--Material Development Decision Defense Acquisition 
Board. Approved AOA commencement stating ``UCLASS is an essential step 
in the evolutionary integration of unmanned air vehicles into the 
Carrier Strike Group.''
    June 8, 2012--JROCM 086-12. Revalidated UCLASS ICD, prioritizing 
cost & schedule for an affordable platform in three to six years. 
Proposed Joint Emerging Operational Need (JEON) for sea-based Intel 
Surveillance and Reconnaissance not validated.
    October 1, 2012--UCLASS AOA Assessment. Director of Cost Assessment 
and Program Evaluation certified UCLASS AOA for future acquisition 
decisions.
    December 19, 2012--JROCM 196-12. Established refined requirement 
(e.g., 2 x 24/7 unrefueled orbits at 600 NM, 1 x 24/7 unrefueled orbit 
at 1200 NM, 2,000 NM unrefueled strike) for an affordable, adaptable 
platform that supports missions across permissive counter-terrorism and 
low-end contested environments, enables capabilities for high-end 
denied operations, and Navy organic missions (Navy incorporated into 
draft CDD).
    April 5, 2013--Draft Capability Development Decision (CDD) reviewed 
by Navy. Chief of Naval Operations approved Navy UCLASS draft CDD 
(incorporated JROCM guidance).
    April 19, 2013--JROCM 089-13. JROC reviewed overall Joint Unmanned 
Aerial Systems (UAS) portfolio and refined UCLASS requirements. 
Approved updated ICD changes since June 2011.
    May 21, 2013--JROCM 105-13. Endorsed UCLASS AOA and requestd 
program update to JROC by 30 Nov 13 to evaluate program against JROCM 
196-12 (19 Dec 12).
    June 7, 2013--Technical Development Strategy Approved. Under 
Secretary of Defense for Acquisition, Technology, and Logistics (USD 
(AT&L)) approved UCLASS acquisition strategy.
    June 10, 2013 Congressional Certification. Vice Chairman Joint 
Chiefs of Staff (VCJCS), Assistant Secretary of the Navy for Research 
Development and Acquisition (ASN RDA) and USD (AT&L) certified to 
Congress UCLASS need, program viability, affordability, and compliance 
with statutes.
    October 18, 2013--Executive Requirements and Resources Review 
Board. Navy leadership reviewed baseline system thresholds, prioritize 
growth capabilities (i.e., payload adaptability, survivability, weapons 
capacity, air refueling, sustainability).
    October 30, 2013--Force Application Functional Capabilities Board. 
Navy provided Joint Staff, OSD, Combatant Command, and Service 
representatives the UCLASS program overview, draft key performance 
parameters/key system attributes (KPP/KSA), cost, schedule, risks.
    November 14, 2013--JROC. Program review of KPP/KSAs, cost, 
schedule, risks.
    February 4, 2014--JROCM 009-14. Endorsed November 2013 review of 
UCLASS program; established UCLASS Early Operational Capability (EOC) 
4-5 years from contract award; emphasized affordability and earliest 
possible delivery. Directed program update to JROC within 60 days of 
contract award.
    May 22, 2014--Navy update to VCJCS. Program status and draft 
request for proposal (RFP). Per JCIDS requirements, the UCLASS draft 
CDD will be revised following technology development and submitted to 
the JROC for validation prior to Milestone B.

                             [all]
</pre></body></html>
